APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Certificate of Judgment and Denying
Application for Rehearing in the
Supreme Court of Alabama
(February 19, 2021) . . . . . . . . . . . App. 1
Appendix B Certificate of Judgment and Denying
Application for Rehearing in the
Supreme Court of Alabama
(February 19, 2021) . . . . . . . . . . . App. 3
Appendix C Opinion in the Supreme Court of
Alabama
(December 18, 2020) . . . . . . . . . . . App. 5
Appendix D Order on Motion to Dismiss of Don
Gottier in the Circuit Court of
Jefferson County, Alabama
Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 46
Appendix E Order on Motion for Summary
Judgment by John F. Bullock in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 48
Appendix F Order on Defendant Claiborne Seier’s
Motion for Summary Judgment in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 54

ii
Appendix G Order on Motion for Summary
Judgment of Clark Andrew Cooper
and Balch & Bingham, LLP in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 64
Appendix H Order on Motion to Vacate Summary
Judgment in the Circuit Court of
Jefferson County, Alabama
Birmingham Division
(November 27, 2018) . . . . . . . . . . App. 78
Appendix I Order
on
Alabama Litigation
Accountability Act in the Circuit Court
of Jefferson County, Alabama
Birmingham Division
(December 7, 2018) . . . . . . . . . . . App. 81
Appendix J Order on Motion to Vacate Alabama
Litigation Accountability Act Order in
the Circuit Court of Jefferson County,
Alabama Birmingham Division
(December 18, 2018) . . . . . . . . . . App. 93
Appendix K Dismissal and Release Order in the
District Court of Shelby County,
Alabama
(November 12, 2013) . . . . . . . . . . App. 95
Appendix L Transcript of Proceedings in the
Circuit Court for the Eighteenth
Judicial Circuit, Shelby County,
Alabama
(June 3, 2016) . . . . . . . . . . . . . . . App. 99

iii
Appendix M Order in the Circuit Court of Shelby
County, Alabama
(June 8, 2016) . . . . . . . . . . . . . . App. 117
Appendix N Order in the Supreme Court of
Alabama
(April 27, 2018) . . . . . . . . . . . . . App. 126
Appendix O Order on Judicial Recusal in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . App. 131
Appendix P Order in the Circuit Court of Jefferson
County, Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . App. 133

App. 1

APPENDIX A
IN THE SUPREME COURT OF ALABAMA
[Seal]
[Filed February 19, 2021]
1180252
Burt W. Newsome and Newsome Law, LLC v. Clark
A. Cooper et al. (Appeal from Jefferson Circuit
Court: CV-15-900190).
CERTIFICATE OF JUDGMENT
WHEREAS, the ruling on the application for
rehearing filed in this case and indicated below was
entered in this cause on February 19, 2021:
Application Overruled. No Opinion. PER
CURIAM - Parker, C.J., and Bolin, Shaw, Wise, Bryan,
Mendheim, Stewart, and Mitchell, JJ., concur.
Sellers, J., recuses himself.
WHEREAS, the appeal in the above referenced
cause has been duly submitted and considered by the
Supreme Court of Alabama and the judgment indicated
below was entered in this cause on December 18, 2020:
Affirmed. PER CURIAM - Parker, C.J., and Bolin,
Shaw, Bryan, Mendheim, Stewart, and Mitchell, JJ.,
concur. Sellers, J., recuses himself.
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court’s

App. 2
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of
Alabama, do hereby certify that the foregoing is a full,
true, and correct copy of the instrument(s) herewith set
out as same appear(s) of record in said Court.
Witness my hand this 19th day of February, 2021.
s/ Julia Jordan Weller
Clerk, Supreme Court of Alabama

App. 3

APPENDIX B
IN THE SUPREME COURT OF ALABAMA
[Seal]
[Filed February 19, 2021]
1180302
Burt W. Newsome and Newsome Law, LLC v. Balch &
Bingham, LLP, et al. (Appeal from Jefferson Circuit
Court: CV-15-900190).
CERTIFICATE OF JUDGMENT
WHEREAS, the ruling on the application for
rehearing filed in this case and indicated below was
entered in this cause on February 19, 2021:
Application Overruled. No Opinion. PER
CURIAM - Parker, C.J., and Bolin, Shaw, Wise,
Bryan, Mendheim, Stewart, and Mitchell, JJ.,
concur.
Sellers, J., recuses himself.
WHEREAS, the appeal in the above referenced
cause has been duly submitted and considered by the
Supreme Court of Alabama and the judgment indicated
below was entered in this cause on December 18, 2020:
Affirmed. PER CURIAM - Parker, C.J., and Bolin,
Shaw, Bryan, Mendheim, Stewart, and Mitchell, JJ.,
concur. Sellers, J., recuses himself.

App. 4
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court’s
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of
Alabama, do hereby certify that the foregoing is a full,
true, and correct copy of the instrument(s) herewith set
out as same appear(s) of record in said Court.
Witness my hand this 19th day of February, 2021.
s/ Julia Jordan Weller
Clerk, Supreme Court of Alabama

App. 5

APPENDIX C
SUPREME COURT OF ALABAMA
OCTOBER TERM, 2020-2021
[Filed December 18, 2020]
1180252
____________________________________
Burt W. Newsome and Newsome )
Law, LLC
)
)
v.
)
)
Clark A. Cooper et al.
)
____________________________________)
1180302
____________________________________
Burt W. Newsome and Newsome )
Law, LLC
)
)
v.
)
)
Balch & Bingham, LLP, et al.
)
____________________________________)
Appeals from Jefferson Circuit Court
(CV-15-900190)

App. 6
PER CURIAM.
Attorney Burt W. Newsome and his law practice
Newsome Law, LLC (hereinafter referred to collectively
as “the Newsome plaintiffs”), sued attorney Clark A.
Cooper; Cooper’s former law firm Balch & Bingham,
LLP (“Balch”); John W. Bullock; Claiborne Seier
(“Seier”); and Don Gottier (hereinafter referred to
collectively as “the defendants”) in the Jefferson Circuit
Court, alleging that the defendants combined to have
Newsome arrested on a false charge with the intent of
damaging his reputation and law practice. The trial
court ultimately entered judgments in favor of the
defendants, while reserving jurisdiction to make a later
award of attorney fees and costs under the Alabama
Litigation Accountability Act, § 12-19--270 et seq., Ala.
Code 1975 (“the ALAA”). After the Newsome plaintiffs
appealed the initial judgments against them, the trial
court awarded Balch, Bullock, Seier, and Gottier
attorney fees and costs under the ALAA. The Newsome
plaintiffs then filed another appeal seeking the reversal
of those awards. We now affirm the judgments
challenged by the Newsome plaintiffs in both appeals.
Facts and Procedural History
On December 19, 2012, Bullock went to his dentist’s
office in Birmingham to have a crown reset. The
dentist’s office shared a parking lot with Newsome
Law, and Bullock parked his vehicle in a parking space
near Newsome’s vehicle. As Bullock got out of his
vehicle to go in for his appointment, Newsome was
leaving his office and approaching his own vehicle.

App. 7
Approximately 11 months earlier, Newsome had
similarly been leaving his office when Alfred Seier
(“Alfred”) exited a vehicle parked near his and
confronted Newsome about collection efforts Newsome
was taking against Alfred’s wife, who owed money to a
bank that Newsome represented. During that
confrontation, Alfred produced a handgun, but
Newsome was able to escape to his office unharmed.
Newsome later filed a criminal complaint against
Alfred for menacing, a violation of § 13A-6--23, Ala.
Code 1975.1 Alfred’s brother Seier, an attorney, later
contacted Newsome and attempted to convince him to
drop the menacing charge against Alfred, who had
cancer and was in poor health, but Newsome declined
to do so.
Newsome states that Bullock’s parking and the
manner in which Bullock exited his vehicle on
December 19 was reminiscent of the incident with
Alfred earlier that year. Feeling threatened, Newsome
pulled out a handgun as he approached Bullock and
their vehicles and ordered Bullock to return to his
vehicle until Newsome entered his vehicle and left.
Bullock did so. Bullock later contacted law enforcement
and swore out a warrant against Newsome for
menacing.
On May 2, 2013, Newsome was stopped by the
police for speeding. After the police officer discovered

1

Section 13A-6-23(a) provides that “[a] person commits the crime
of menacing if, by physical action, he intentionally places or
attempts to place another person in fear of imminent serious
physical injury.”

App. 8
that Newsome had an outstanding warrant for his
arrest, Newsome was taken into custody and was
transported to the Shelby County jail. Newsome was
released later that day.
Two days later, Cooper learned about Newsome’s
arrest. Like Newsome, Cooper was an attorney who
represented banks in creditors’ rights actions. Cooper
and Newsome, in fact, had several of the same banks as
clients, representing them in different matters,
depending on the nature and scope of the action. As
part of his practice, Cooper periodically e-mailed his
banking clients when he learned that another attorney
had filed an action on their behalf to ask if there was
anything he could do to get more business referred to
Balch; Cooper had sent these e-mails to some of his
clients after learning of actions that Newsome had
filed. Upon learning of Newsome’s arrest, Cooper
forwarded Newsome’s mug shot to a friend who was an
executive at IberiaBank, which periodically referred
legal matters to both Cooper and Newsome, with a note
wondering how Newsome’s arrest would affect his law
license. That IberiaBank executive subsequently
testified that he did not refer any cases to Newsome for
the next three weeks until they met and Newsome
assured him that the menacing charge would have no
effect on his ability to practice law. IberiaBank
thereafter resumed referring cases to Newsome.
Newsome’s menacing charge was set for a
November 12, 2013, trial in the Shelby District Court.
During a pretrial conference that morning, the State,
with Bullock’s consent, offered to continue the trial
until April 1, 2014, and to then dismiss the charge at

App. 9
that time if Newsome had no further arrests and paid
the required court costs. The “Dismissal and Release”
order (“the D&R order”) memorializing the terms of
their agreement further provided:
“[Newsome] does hereby grant a full, complete
and absolute Release of all civil and criminal
claims stemming directly or indirectly from this
case to the State of Alabama ... [and] to any
other complainants, witnesses, associations,
corporations, groups, organizations or persons in
any way related to this matter .... [Newsome]
freely makes this release knowingly and
voluntarily. In exchange for this release, this
case will be either dismissed immediately, or
pursuant to conditions noted above.”
(Emphasis in original.) The D&R order was signed by
Bullock, the assistant district attorney, Newsome, and
Newsome’s attorney. On April 4, 2014, the district
court dismissed the case against Newsome.
On January 14, 2015, the Newsome plaintiffs sued
Cooper, Balch, Bullock, and Seier, alleging, as later
amended, malicious prosecution, abuse of process, false
imprisonment, the tort of outrage, defamation, invasion
of privacy, and multiple counts of conspiracy and
intentional interference with a business relationship.
The gist of their complaint was that Cooper and Seier
conspired with Bullock to stage a confrontation and to
set Newsome up to be arrested so that Cooper could
then take Newsome’s clients on behalf of Balch and

App. 10
Seier could get revenge upon Newsome for filing a
menacing charge against Alfred.2
On February 13, 2015, Seier moved the trial court
to dismiss the Newsome plaintiffs’ claims asserted
against him, arguing that they had no factual basis and
that, in any event, the claims were barred by the
release clause in the D&R order because the claims
were related to Newsome’s menacing case. Six days
later, Newsome petitioned the Shelby Circuit Court to
expunge the records relating to his menacing charge
under § 15-27-1, Ala. Code 1975. Both the State and
Bullock filed objections, and, following a hearing,
Newsome’s petition was denied. Newsome moved the
court to reconsider, however, and, on September 10,
2015, the court granted his motion and entered an
order (“the expungement order”) expunging the records
relating to his menacing charge.
While Newsome was pursuing expungement in the
Shelby Circuit Court, the Jefferson Circuit Court
granted motions to dismiss filed by Seier and Bullock
and a summary-judgment motion filed by Cooper and
Balch. But after the expungement order was entered by
the Shelby Circuit Court, the Newsome plaintiffs
moved the Jefferson Circuit Court to reconsider,
arguing, among other things, that because the records
of Newsome’s criminal case had been expunged,
nothing from that case -- including the D&R order
containing the release clause -- could be produced or
relied upon in the Newsome plaintiffs’ civil case.

2

The Newsome plaintiffs’ complaint did not offer a reason for
Bullock’s participation in the alleged scheme.

App. 11
See § 15-27--16(a), Ala. Code 1975 (explaining that the
contents of an expunged file generally cannot be
revealed, used, or disclosed by an individual who knows
an expungement order has been issued). In December
2015, the Jefferson Circuit Court granted the Newsome
plaintiffs’ motion and vacated its judgments in favor of
Cooper, Balch, Bullock, and Seier. The Newsome
plaintiffs then continued to conduct discovery trying to
uncover a link between Cooper, Bullock, and Seier, all
of whom denied that a conspiracy existed or that they
even knew each other.
Meanwhile, back in the Shelby Circuit Court,
Bullock and Seier filed requests to have the
expungement order reversed based on Newsome’s
breach of the release clause in the D&R order. On June
8, 2016, the Shelby Circuit Court granted their
requests and reversed the expungement order under
§ 15-27-17, Ala. Code 1975, explaining that Newsome
had obtained the expungement order under false
pretenses because he had not, in fact, fulfilled all the
terms of the D&R order at the time he sought
expungement (this order is hereinafter referred to as
“the expungement-reversal order”).3 The Shelby Circuit
Court further explained:
“The movants are further free to utilize all
records related to [Newsome’s] prosecution, plea
and the case’s disposition as they may find
3

Section 15-27-17 provides that, “[u]pon determination by the
court that a petition for expungement was filed under false
pretenses and was granted, the order of expungement shall be
reversed and the criminal history record shall be restored to reflect
the original charges.”

App. 12
appropriate and necessary. The expungement
statute was enacted to provide a ‘shield’ to
first-time and non-violent offenders. It was not
intended to be a ‘sword’ for those engaged in civil
litigation over the same transaction made the
basis of their criminal offense, and the court will
not construe the statute as such.”
Newsome then petitioned the Court of Criminal
Appeals to set aside the expungement-reversal order,
but, in a four-page order, the Court of Criminal
Appeals unanimously denied his request, stating: “We
find no abuse of discretion in the trial court’s finding
that the petition for expungement was filed under false
pretenses in contravention of the agreement signed
between the parties.” (No. CR-15-1223, September
20,2017.) Newsome followed that ruling by petitioning
this Court for the same relief; that petition was also
denied. (No. 1161155, April 27, 2018.)
The Newsome plaintiffs, meanwhile, continued with
discovery in their civil case against the defendants,
eventually obtaining the telephone records of Cooper,
Bullock, and Seier. Those records indicated that
Cooper, Bullock, and Seier had all received calls from
telephone number 205-410-1494 on dates surrounding
notable events in this case, including the date of
Newsome and Bullock’s confrontation in the parking
lot, the date of Newsome’s arrest, the date Cooper sent
the e-mail with Newsome’s mugshot to an IberiaBank
executive, and the date the Newsome plaintiffs filed
their complaint initiating the underlying action. Based
on some Internet searches, Newsome concluded that
the telephone number 205--410-1494 was assigned to

App. 13
76-year-old Calera resident Don Gottier, and, on June
30, 2017, the Newsome plaintiffs filed an amended
complaint naming Gottier as a defendant and asserting
that he was the coordinator of the alleged conspiracy
that had targeted Newsome. The Newsome plaintiffs
also asked the trial court enter a judgment declaring
the D&R order void and unenforceable.
Upon being served with the Newsome plaintiffs’
complaint, Gottier contacted the Calera Police
Department and filed a report indicating that he may
be a victim of identity theft because he had been named
a defendant in a lawsuit alleging that the telephone
number 205-410-1494 was assigned to him, but, he
stated, he had never been assigned or operated that
telephone number. During the course of its ensuing
investigation, the Calera Police Department
subpoenaed records from Verizon Wireless, a
cellular-telephone provider, and received information
indicating that the telephone number 205-410-1494
was not, in fact, a working telephone number but was
instead an internal routing number controlled by
Verizon Wireless that was used to connect calls
originating from outside the caller’s home area. A
custodian of records for Verizon Wireless subsequently
confirmed that information in a deposition when he
testified that the telephone number 205-410-1494 had
been used as a routing number by Verizon Wireless

App. 14
since 2007 and that it was not assigned to any
individual customer.4
Cooper, Balch, Bullock, and Seier thereafter filed
new summary-judgment motions with the trial court,
and Gottier filed a motion to dismiss. The defendants
supported their respective motions with evidence
indicating that, other than Cooper and Balch, they did
not know each other before the Newsome plaintiffs
sued them and that there had been no conspiracy to
stage an incident that would result in Newsome’s
arrest. The trial court held a hearing on those motions,
during which it expressed skepticism about the merits
of the Newsome plaintiffs’ claims, but, before the trial
court could issue a ruling, the Newsome plaintiffs
moved the trial judge to recuse herself, alleging bias.
Following another hearing, the trial court denied the
motion to recuse. The Newsome plaintiffs then
petitioned this Court for a writ of mandamus directing
the trial judge to recuse herself. That petition was
denied. (No. 1170844, August 8, 2018.)
On June 15, 2018, the trial court entered judgments
in favor of the defendants on all of the Newsome
plaintiffs’ claims, expressly reserving the right to later
enter an award of attorney fees and costs under the
ALAA.5 See SMM Gulf Coast, LLC v. Dade Capital

4

The defendants have noted that this also explains why 205-4101494 is listed in telephone records only as the number originating
a call; there is no evidence anybody ever placed a call to
205-410-1494.

5

Although the judgment entered in favor of Gottier purported to
grant his motion to dismiss, it noted that the trial court had

App. 15
Corp., [Ms. 1170743, June 5, 2020] ___ So. 3d ___, ___
(Ala. 2020) (explaining that a trial court retains
jurisdiction to enter a postjudgment award of attorney
fees under the ALAA only if it has expressly reserved
jurisdiction to do so). The parties then filed briefs and
evidence regarding the defendants’ motions for
attorney fees and costs,which the trial court ultimately
granted in the following amounts: $56,283 for Balch;
$56,317 for Bullock; $78,341 for Seier; and $1,250 for
Gottier. The Newsome plaintiffs appeal both the
underlying judgments (case no. 1180252) and the
awards entered against them under the ALAA (case no.
1180302).
Analysis
The Newsome plaintiffs make myriad arguments
about how the trial court allegedly erred and why the
judgments entered in favor of the defendants should be
reversed. Ultimately ,however, it is unnecessary for
this Court to address all of those arguments. For the
reasons explained below, we hold (1) that the trial
judge did not exceed her discretion in denying the
Newsome plaintiffs’ motion seeking her recusal;
(2) that Newsome is bound by the release clause in the
D&R order; (3) that summary judgment was proper on

reviewed all the “evidence submitted.” When a trial court
reviewing a motion to dismiss considers evidence outside the
pleadings, the motion is converted into a summary-judgment
motion. Lifestar Response of Alabama, Inc. v. Admiral Ins. Co., 17
So. 3d 200, 212-13 (Ala. 2009). Accordingly, we treat the judgment
of dismissal entered by the trial court in favor of Gottier, like the
other judgments entered on June 15, 2018, as a summary
judgment.

App. 16
all claims asserted by Newsome Law, and (4) that the
circumstances of this case support the trial court’s
award of attorney fees and costs under the ALAA. We
pretermit discussion of all other issues raised by the
parties.
A. The Newsome Plaintiffs’ Seeking the Trial
Judge’s Recusal
We first consider the Newsome plaintiffs’ argument
that the trial judge should have recused herself and
that her failure to do so requires the reversal of the
judgments she has entered.
1. Standard of Review
“A trial judge’s ruling on a motion to recuse is
reviewed to determine whether the judge exceeded his
or her discretion.” Ex parte George, 962 So. 2d 789, 791
(Ala. 2006). This Court has further explained that the
necessity for recusal will be evaluated in each case
based on the totality of the circumstances, id., and that,
when an allegation of bias has been made, recusal will
be required only “where facts are shown which make it
reasonable for members of the public, or a party, or
counsel opposed to question the impartiality of the
judge.” Acromag-Viking v. Blalock, 420 So. 2d 60, 61
(Ala. 1982).
2. Merits of the Newsome Plaintiffs’ Recusal
Argument
The Newsome plaintiffs argue that the trial judge’s
impartiality can reasonably be questioned because
(1) she and her husband, a state legislator, allegedly
received $34,500 in campaign donations from “agents”

App. 17
having some association with the defendants and
(2) the trial judge has made various rulings throughout
the course of this case that have gone against the
Newsome plaintiffs. We are not convinced by the
Newsome plaintiffs’ arguments.
In their brief to this Court, the Newsome plaintiffs
cite Ex parte Duncan, 638 So. 2d 1332, 1334 (Ala.
1994), and In re Sheffield, 465 So. 2d 350,357
(Ala.1985), for the well established general principle
that recusal is appropriate when there is a reasonable
basis for questioning a judge’s impartiality. But they
cite no authority to support their allegations that the
trial judge in this case did anything that would
reasonably cause one to question her impartiality and
thus require her recusal. In contrast,the defendants
have cited authority that supports the trial court’s
denial of the motion to recuse. With regard to the
alleged campaign contributions, Cooper and Balch note
that one appellate judge has explained how impractical
it would be to require judges to recuse themselves in
every case in which a party or attorney has supported
the judge’s campaign because, in Alabama, judges are
required to run for reelection and, therefore,
“situations will arise in which an attorney
associated with a specific judge’s campaign will
have a case come before that judge. If we were to
require recusal in such cases, we would be
opening Pandora’s box leading to untold
problems for probate judges, district judges,
circuit judges, and appellate judges, all of whom
must run for election to their judgeships and all

App. 18
of whom have had numerous
associated with their campaigns.”

attorneys

Smith v.Alfa Fin.Corp.,762 So.2d 843,849 (Ala. Civ.
App. 1997) (opinion on application for rehearing)
(Monroe, J., statement of nonrecusal), reversed on
other grounds by Ex parte Alfa Fin. Corp., 762 So. 2d
850 (Ala. 1999). Cooper and Balch further note that in
§ 12-24-3, Ala. Code 1975, the Alabama Legislature
specifically addressed the circumstances in which
campaign contributions might require a judge’s recusal,
but the Newsome plaintiffs have failed to cite or make
any argument invoking that statute.6 And, with regard
to the trial court’s rulings against the Newsome
plaintiffs on various issues raised during the pendency
of this case, Bullock notes that this Court has
previously held that “[a]dverse rulings during the
course of proceedings are not by themselves sufficient
to establish bias and prejudice on the part of a judge.”
Henderson v. G&G Corp., 582 So. 2d 529, 530-31 (Ala.
1991).

6

Section 12-24-3 explains that there is a rebuttable presumption
that a judge should recuse himself or herself from a case when a
party or a party’s attorney has made a campaign contribution that
represents a significant portion of the judge’s fundraising. See
Dupre v. Dupre, 233 So. 3d 357, 360 (Ala. Civ. App. 2016) (“By its
plain language, § 12–24–3(b)(2) creates a rebuttable presumption
that a circuit-court judge should recuse himself or herself when a
party, or his or her attorney, contributes 15% or more of the total
campaign contributions collected by the circuit-court judge during
an election cycle while the party, or his or her attorney, has a case
pending before the judge.”). The Newsome plaintiffs’ brief does not
reveal or address the total campaign contributions received by the
trial judge in this case.

App. 19
Turning to the merits of the Newsome plaintiffs’
recusal motion, we are not convinced that, under the
totality of the circumstances, there is a reasonable
basis to question the impartiality of the trial judge.
George, 962 So. 2d at 791. Although the Newsome
plaintiffs allege that agents of the defendants have
given $34,500 to the campaigns of the trial judge and
her state-legislator husband, the evidence does not
support that allegation. First, the Newsome plaintiffs
argue that $29,500 of campaign contributions made by
political action committees should be attributed to
Balch because Balch or its agents had made
contributions to those committees. But Balch’s general
counsel provided unrefuted testimony that, “once a
contribution is made to a political action committee,
that political action committee has the authority and
discretion as to which candidates it decides to support
with any funds contributed.”7
Next, the Newsome plaintiffs include in their
$34,500 calculation a $3,000 donation made by the law
firm that employs Alfred’s wife as a paralegal. It is
borderline absurd, however, to suggest that a campaign
donation to the legislator spouse of a trial judge made
by the employer of the wife of the brother of one of five
defendants would be a basis upon which a person could

7

We further note that in Startley General Contractors, Inc. v.
Water Works Board of Birmingham, 294 So. 3d 742, 758 n.10 (Ala.
2019), this Court reviewed a ruling on a motion to recuse made
under 12-24-3 and distinguished between donations to a campaign
made by a political action committee and those made by an
individual.

App. 20
reasonably conclude that the trial judge was biased in
favor of the defendants.
Finally, the Newsome plaintiffs note that the
outside law firm that Balch ultimately retained to
represent it and Cooper in this action has also donated
$2,000 to the trial judge. Again, however, we do not
conclude, and do not believe that any reasonable person
would conclude, that this campaign donation is a
reasonable basis upon which to question the
impartiality of the trial judge. As explained by the
special writing in Smith, 762 So. 2d at 849, judges in
Alabama are required to campaign for their positions.
As part of that process, attorneys will inevitably
provide financial support for candidates. Indeed,
Newsome acknowledged at the hearing on the motion
to recuse that he too has made campaign contributions
to judges before whom he practices. Section 12-24-3
provides that there is a rebuttable presumption that a
judge should recuse himself or herself from a case when
a party or a party’s attorney has made a campaign
contribution that represents a significant portion of the
judge’s fundraising, but the Newsome plaintiffs have
not cited this statute or demonstrated that any of the
campaign donations they have identified were of an
amount sufficient to implicate § 12-24-3.
We also expressly reject the Newsome plaintiffs’
argument that the fact that the trial judge has ruled
against them on various issues throughout the course
of this litigation demonstrates a bias against them.
Although the trial judge has ruled against the
Newsome plaintiffs on some issues, she has also issued
rulings favorable to them. Notably, in December 2015,

App. 21
she vacated judgments she had previously issued
disposing of the Newsome plaintiffs’ claims and allowed
them to thereafter conduct extensive discovery.
Considering the totality of the facts and circumstances,
no reasonable person could consider the trial judge’s
rulings and conclude that they were the product of bias
and prejudice. The trial judge did not exceed her
discretion by denying the Newsome plaintiffs’ motion
to recuse.
B. The D&R Order
We next consider the Newsome plaintiffs’
arguments concerning the D&R order. They argue,
first, that it was reversible error for the trial court to
consider the D&R order or any other materials related
to Newsome’s menacing case, because, they allege, the
expungement-reversal order was “counterfeit” and the
expungement order was therefore still in effect and
barred consideration of the D&R order. They
additionally argue that, even if the trial court could
consider the D&R order, the release clause in that
order is unenforceable and that the trial court therefore
erred to the extent it concluded that the release clause
barred the Newsome plaintiffs from pursuing civil
claims against the defendants stemming from
Newsome’s menacing arrest. Neither of those
arguments has merit.
1. Standard of Review
The Newsome plaintiffs are essentially arguing that
the D&R order is inadmissible as evidence in the
underlying action. This Court has explained that we
will reverse a trial court’s decision to consider evidence

App. 22
submitted in conjunction with a summary-judgment
motion only if it is established that the trial court
exceeded its discretion in doing so. Swanstrom v.
Teledyne Cont’l Motors, Inc., 43 So. 3d 564, 574
(Ala.2009). To the extent the Newsome plaintiffs argue
that the trial court erred in holding that the release
clause in the D&R order bars their claims, we review
that issue de novo. See McDonald v. H&S Homes,
L.L.C., 853 So. 2d 920, 923 (Ala. 2003) (explaining that
the interpretation of an unambiguous provision is a
question of law, which we review de novo).
2. The Validity of the Expungement-Reversal
Order
As explained in the statement of facts above, after
Seier moved the trial court to dismiss the Newsome
plaintiffs’ claims based on the release clause in the
D&R order, Newsome petitioned the Shelby Circuit
Court to expunge the records of his menacing charge.
Once Newsome successfully obtained the expungement
order, the Newsome plaintiffs argued to the trial court
that § 15-27-16(a), Ala. Code 1975, barred the
defendants from introducing the D&R order into
evidence or from relying upon its release clause. But
the Shelby Circuit Court later reversed the
expungement order after concluding that Newsome had
obtained the expungement order under false pretenses.
That prompted the trial court to allow the defendants
to submit evidence related to Newsome’s menacing
charge -- including the D&R order. And the trial court
relied upon the D&R order when entering its

App. 23
judgments in favor of the defendants.8 Indeed, in
granting Bullock’s summary-judgment motion, the trial
court expressly held that “Newsome executed a valid
and binding release.”
The Newsome plaintiffs nonetheless argue that it
was reversible error for the trial court to consider the
D&R order because, they allege, the expungementreversal order was “counterfeit” and the expungement
order -- and the concomitant prohibition on using any
records related to Newsome’s menacing charge -- was
therefore still in effect. Although the Newsome
plaintiffs repeatedly use the term “counterfeit” to
describe the expungement-reversal order, they are not
alleging that the judge’s signature on that order was
forged; rather, they dispute the conclusions set forth in
the order, challenge the court’s jurisdiction to enter the
order, and argue that the order has no effect because it
was not entered into the State Judicial Information
System (“SJIS”). Newsome previously made these
arguments when he filed petitions with the Court of
Criminal Appeals and this Court.9 Those petitions were
8

We note that, although Bullock was the only defendant who
signed the D&R order, the language of its release clause is broad
enough to encompass claims asserted against “organizations or
persons in any way related to the matter.” See discussion, infra.

9

Section 15-27-5(c), Ala. Code 1975, provides that the ruling of a
court on a request for expungement of a criminal record “shall be
subject to certiorari review.” In Bell v. State, 217 So. 3d 962, 963
(Ala. Crim. App. 2016), the Court of Criminal Appeals explained
that, because Rule 39,Ala.R. App. P., only contemplates certiorari
petitions filed with the Supreme Court seeking review of a decision
made by one of the intermediate appellate courts, certiorari
petitions seeking review of a ruling on a request for expungement

App. 24
denied. The arguments presented in those petitions are
no more persuasive this time around.
As the Court of Criminal Appeals explained in its
order denying Newsome’s petition, the Shelby Circuit
Court had jurisdiction to consider whether Newsome
filed his petition for expungement under false
pretenses pursuant to § 15-27-17, which provides that
an order of expungement “shall be reversed” if the
court determines that the petition for expungement
was filed under false pretenses. The Court of Criminal
Appeals noted that, because § 15-27-17 provides no
time frame in which a motion to set aside an
expungement order must be filed or in which a ruling
on such a motion must be made, the court had
jurisdiction to reverse the expungement order
notwithstanding the fact that it did so more than 30
days after that order was entered. In light of the
evidence, the Court of Criminal Appeals further
concluded that it could “find no abuse of discretion in
the trial court’s finding that the petition for
expungement was filed under false pretenses in
contravention of the agreement signed by the parties.”
After failing to obtain relief from the Court of
Criminal Appeals, Newsome petitioned this Court for
a writ of certiorari or, in the alternative, a writ of
mandamus, directing the Shelby Circuit Court to
vacate its order reversing the expungement order. In
an April 27, 2018, order, we denied Newsome’s petition

are governed by Rule 21(c), Ala. R. App. P., which applies to
extraordinary writs other than writs of mandamus and
prohibition.

App. 25
but directed the Shelby Circuit Court to enter the
expungement-reversal order into the SJIS. The
Newsome plaintiffs state that, despite this Court’s
April 2018 order, the Shelby Circuit Court still has not
entered the expungement-reversal order into the SJIS.
Accordingly, they repeat their argument that the
expungement -reversal order is invalid because it is not
in the SJIS.
We reject that argument. When this Court directed
the Shelby Circuit Court to enter the expungementreversal order into the SJIS in April 2018, we implicitly
held that that order was valid and that the evidence
supported the court’s exercising its discretion to
reverse the expungement order. We expressly confirm
that now. The Newsome plaintiffs’ argument that the
expungement-reversal order is “counterfeit” and that
the trial court therefore erred by allowing the
defendants to introduce the D&R order in this action is
without merit.
3. The Validity of the Release Clause in the D&R
Order
The Newsome plaintiffs argue that, even if the trial
court could consider the D&R order, the release clause
in that order is unenforceable because (1) the D&R
order violates Alabama law against compounding;
(2) any legal effect the D&R order might have had
ended once Newsome’s menacing case was officially
dismissed five months later; (3) the release clause
constitutes a punishment not permitted by law; (4) the
release clause was obtained by fraud; and (5) the
release clause is invalid under federal law. We consider
these arguments in turn.

App. 26
a. Whether the D&R order violates Alabama
law prohibiting compounding
The Newsome plaintiffs first argue that, because
the D&R order provided that Newsome’s menacing case
would be dismissed if, among other things, he released
“all civil and criminal claims stemming directly or
indirectly from this case,” the D&R order violates
§ 13A-10-7(a), Ala. Code 1975, which provides that “[a]
person commits the crime of compounding if he gives or
offers to give, or accepts or agrees to accept, any
pecuniary benefit or other thing of value in
consideration for ... [re]efraining from seeking
prosecution of a crime.” The Newsome plaintiffs fail to
acknowledge, however, that this Court expressly held
that “[r]elease-dismissal agreements are not invalid per
se” in Gorman v. Wood, 663 So.2d 921, 922 (Ala.1995),
another case in which an individual sought to file a
lawsuit after signing a release in exchange for having
his criminal charges dismissed. The Gorman Court
explained:
“We have studied the general release in this
case. The plaintiff admits that he signed the
release and that [his criminal cases] ... were
dismissed when the release was signed. When
the plaintiff signed the release, he was
represented by an attorney, who had drafted the
release and who notarized the plaintiff’s
signature. The plaintiff does not allege that the
release was obtained by fraud. The release is not

App. 27
ambiguous. Therefore, the plain and clear
meaning of the terms of the release document
must be given effect.”
Id.
Although Gorman did not directly address
§ 13A-10-7, the United States District Court for the
Middle District of Alabama addressed that statute in
Penn v. City of Montgomery, 273 F. Supp. 2d 1229,
1237 (M.D. Ala. 2003), and concluded that a
prosecutor’s decision to dismiss pending criminal
charges did not constitute “refraining from seeking
prosecution of a crime” as that term is used in
§ 13A-10-7(a) and that release dismissal agreements
simply did not constitute” the kind of conduct which
the Alabama Code has said constitutes the crime of
compounding.” The Penn court further explained that
this Court had effectively held as much in Gorman
though it did not expressly state its holding in those
terms. 273 F. Supp. 2d at 1238.10 The Newsome
plaintiffs’ argument -- that the release clause in the
D&R order has no effect because the order was void
under § 13A-10-7 -- is without merit.

10

The United States Court of Appeals for the Eleventh Circuit
affirmed the holding of Penn in Penn v. City of Montgomery, 381
F.3d 1059, 1062-63 (11th Cir. 2004), similarly concluding that
§ 13A-10-7 does not bar release-dismissal agreements and noting
that this Court had implicitly recognized that fact in Gorman.

App. 28
b. Whether the release clause was no longer
binding after Newsome’s menacing case was
dismissed
The Newsome plaintiffs next argue that the D&R
order was essentially an interlocutory order that
became unenforceable after a final judgment was
entered five months later dismissing Newsome’s
criminal case. In support of this argument, they cite
multiple family-law cases for the proposition that a
settlement agreement that is merged into a final
judgment can no longer be enforced as a contract. See,
e.g., Turenne v. Turenne, 884 So. 2d 844, 849 (Ala.
2003) (explaining that the appellant had “no claim that
can be enforced on a contract theory ... because the
settlement agreement was merged into the divorce
judgment”). Thus, they argue, the defendants cannot
now enforce the release clause in the D&R order
because the D&R order was subsumed by the final
judgment dismissing Newsome’s case.
The Newsome plaintiffs misread Turenne and the
other cases upon which they rely; to the extent those
family-law cases apply, they do not support the
conclusion that the D&R order ceased being valid when
Newsome’s case was dismissed. In Turenne, this Court
quoted the following passage from Killen v. Akin, 519
So. 2d 926, 930 (Ala. 1988):
“ ‘The question whether a separation
agreement or a property settlement is merged in
the decree or survives as an independent
agreement depends upon the intention of the
parties and the court ....’ East v. East, 395 So. 2d
78 (Ala. Civ. App. 1980), cert. denied, 395 So. 2d

App. 29
82 (Ala. 1981). If there is an agreement between
the parties and it is not merged or superseded by
the judgment of the court, it remains a contract
between the parties and may be enforced as any
other contract.”
Thus, a settlement agreement is not always subsumed
within the final judgment; rather, it depends upon “the
intention of the parties and the court.” 519 So. 2d at
930. It is clear here that the parties to the D&R order
intended for it to survive as an independent agreement,
most notably because of the broad release clause
contained in the order. It would be irrational to include
a release clause that would no longer have any effect
once Newsome received the benefit of his bargain and
the criminal charge was dismissed, and we will not
read the D&R order in a manner that would be
contrary to its terms and allow such a result. The
Newsome plaintiffs are entitled to no relief on the basis
of this argument.
c. Whether the release clause imposed a
punishment not authorized by law
The Newsome plaintiffs next argue that the release
clause should not be enforced because, they argue, it
constitutes a punishment not permitted by Alabama
law. In support of this argument, they cite § 15-18-1(a),
Ala. Code 1975, which provides that “[t]he only legal
punishments, besides removal from office and
disqualification to hold office, are fines, hard labor for
the county, imprisonment in the county jail,
imprisonment in the penitentiary, which includes hard
labor for the state, and death.” Notably, the Newsome
plaintiffs state, requiring a defendant to release legal

App. 30
claims he or she may have is not a sentencing option
under § 15-18-1(a).
As explained above in our discussion of § 13A-10-7
and Gorman, release-dismissal agreements are
permitted by Alabama law. The Newsome plaintiffs fail
to recognize that a party voluntarily releasing legal
claims he or she may have in return for the dismissal
of criminal charges is not receiving a sentence of
punishment that must comply with § 15-18-1(a);
rather, that party is making a decision to release those
claims so as to avoid entirely the possibility of a
sentence including any of the punishment
contemplated by § 15-18-1(a). This argument therefore
fails.
d. Whether the release clause is void because
the D&R order was obtained through fraud
In Gorman, this Court noted that there was no
allegation in that case that the release-dismissal
agreement at issue had been obtained by fraud. 663
So.2d at 922. In contrast, the Newsome plaintiffs have
alleged that the D&R order was the product of fraud,
and they argue that “[a] release obtained by fraud is
void.” Taylor v. Dorough, 547 So. 2d 536, 540
(Ala.1989). They specifically point to their allegation
that the defendants concealed the “fact” that
Newsome’s parking-lot confrontation with Bullock was
planned and staged by them to set Newsome up for a
false charge of menacing. They further represent that
Newsome never would have signed the D&R order and
agreed to release any potential claims if he had known
of the defendants’ alleged conspiracy.

App. 31
Although it is true that a release obtained by fraud
is void, the Newsome plaintiffs’ argument fails because,
despite the extensive discovery that has been
conducted, they have not identified substantial
evidence supporting their allegation that the D&R
order was obtained through fraud. See, e.g., Anderson
v. Amberson, 905 So. 2d 811, 816 (Ala. Civ. App. 2004)
(affirming the summary judgment entered on one of the
plaintiff’s claims because the plaintiff “did not present
substantial evidence supporting his claim of fraud in
the inducement pertaining to the release”). The
defendants have consistently maintained throughout
this litigation that there was no conspiracy and that,
apart from Cooper and Balch, they did not even know
one another before the Newsome plaintiffs named them
as defendants in this action; the evidence they
submitted with their summary-judgment motions
supports this position.11 The Newsome plaintiffs’ only
counter has been to claim that the defendants are all
linked by Gottier and the telephone number
205-410-1494. But the undisputed evidence has
established that the telephone number 205-410-1494 is
not a working telephone number and that it is not
assigned to or operated by Gottier. Simply put, no
fair-minded person in the exercise of impartial
judgment could reasonably infer -- based on the

11

The Newsome plaintiffs assert that the defendants have “simply
ignored [their] claim for fraudulent concealment and have done
nothing to rebut [the Newsome plaintiffs’] prima facie case that the
release is not valid.” Newsome plaintiffs’ brief, p. 78. This assertion
is disingenuous. The record is replete with instances of the
defendants claiming that there was no conspiracy that was
fraudulently concealed from Newsome.

App. 32
evidence before the trial court as opposed to mere
speculation and conjecture -- that the defendants
conspired to stage an altercation that would result in
Newsome’s arrest. See § 12-21-12, Ala. Code 1975;
West v. Founders Life Assurance Co. of Florida, 547 So.
2d 870, 871 (Ala. 1989) (defining substantial evidence).
Because the Newsome plaintiffs have not adduced
substantial evidence to support their allegation that
the D&R order containing the release was the product
of fraud, we will not conclude that the D&R order is
unenforceable on that basis.
e. Whether the release clause is void under
federal law
Finally, the Newsome plaintiffs argue that this
Court should apply the decision of the Supreme Court
of the United States in Town of Newton v. Rumery, 480
U.S. 386 (1987), and conclude on that authority that
the release clause in the D&R order is invalid. In
Rumery, the plaintiff, who had been arrested for
tampering with a witness, executed a release-dismissal
agreement in which he agreed to release any claims
against the town employing the police officers who had
arrested him, town officials, and his victim in exchange
for the dismissal of the criminal charges he faced. In
spite of that agreement, the plaintiff thereafter sued
the town and certain town officials alleging civil-rights
violations under 42 U.S.C. § 1983, but his case was
dismissed after the federal district court concluded that
his decision to execute the release had been voluntary,
deliberate, and informed. The United States Court of
Appeals for the First Circuit reversed the district
court’s judgment, however, adopting a per se rule

App. 33
invalidating release-dismissal agreements. The case
was then appealed to the United States Supreme
Court, which reversed the Court of Appeals’ judgment,
explaining that, “although we agree that in some cases
these agreements may infringe important interests of
the criminal defendant and of society as a whole, we do
not believe that the mere possibility of harm to these
interests calls for a per se rule.” 480 U.S. at 392. The
Court then considered (1) whether the releasedismissal agreement was voluntary; (2) whether there
was evidence of prosecutorial misconduct; and
(3) whether enforcement of the agreement would
adversely affect the relevant public interests.
Concluding that all of those factors weighed in favor of
enforcing the agreement, the Court ruled that the
release-dismissal agreement was valid and that it
required the dismissal of the plaintiff’s § 1983 action.
It is not clear why the Newsome plaintiffs believe it
would benefit their position if this Court adopts the
holding in Rumery. Like the plaintiff in Rumery,
Newsome, after receiving advice from counsel, executed
an agreement releasing his claims against the local
municipality, government officials, and the victim of
his crime. The D&R order indicates on its face that
Newsome voluntarily agreed to its terms. Moreover,
there is no evidence, or even an allegation, of
prosecutorial misconduct, and enforcing the D&R order
according to its terms would not adversely affect any
public interest. In sum, nothing in Rumery supports
the Newsome plaintiffs’ argument that the D&R order
should not be enforced.

App. 34
4. The Effect of the Release Clause in the D&R
Order
Having established that the release clause in the
D&R order is valid and enforceable, we must next
determine its effect. By executing the D&R order in his
menacing case, Newsome granted “a full, complete and
absolute Release of all civil and criminal claims
stemming directly or indirectly from this case ... to any
other complainants, witnesses, associations,
corporations, groups, organizations or persons in any
way related to this matter.” (Emphasis in original.) The
theory of the Newsome plaintiffs’ case is that the
defendants combined to stage the parking-lot
confrontation between Newsome and Bullock so that
Newsome would be arrested on a false charge. All the
claims asserted by Newsome against the defendants -malicious prosecution, abuse of process, false
imprisonment, the tort of outrage, defamation, invasion
of privacy, conspiracy, and intentional interference
with a business relationship -- stem at least indirectly
from his menacing case and are accordingly within the
scope of the release clause.
We further note that, although Bullock was the only
one of the defendants to sign the D&R order, the
language of its release clause is broad enough to
encompass claims asserted against “organizations or
persons in any way related to this matter.” See also
Conley v. Harry J. Whelchel Co., 410 So. 2d 14, 15 (Ala.
1982) (explaining that the broad and unambiguous
terms of a release barred the plaintiffs from pursuing
claims against defendants who were not parties to the
agreement containing the release). Again, the entire

App. 35
theory of the Newsome plaintiffs’ case is that the
defendants were all involved in the alleged conspiracy
leading to his menacing arrest. The Newsome plaintiffs
have not claimed that the defendants are not “related
to” Newsome’s menacing case. And they could not
credibly do so -- their alleged combined involvement is
the essence of this lawsuit. In its orders entering
summary judgments for the defendants, the trial court
cited the release clause only as a basis for the judgment
entered in favor of Bullock. Nevertheless, “we will
affirm a summary judgment if that judgment is proper
for any reason supported by the record, even if the
basis for our affirmance was not the basis of the
decision below.” DeFriece v. McCorquodale, 998 So. 2d
465, 470 (Ala. 2008). The release clause in the D&R
order barred Newsome from pursuing any civil claims
“stemming directly or indirectly” from his menacing
case against any “complainants, ... organizations or
persons in any way related to [that] matter.” This
includes all the claims Newsome has individually
asserted against Cooper, Balch, Bullock, Seier, and
Gottier, and the judgments entered in favor of the
defendants on those claims were therefore proper.
C. The Claims Asserted by Newsome Law
The materials filed by the Newsome plaintiffs
throughout this action generally treat the claims they
have asserted as collective claims held by both
Newsome and Newsome Law. Nevertheless, it is
apparent that the majority of those claims are
personally held only by Newsome individually. The
Newsome plaintiffs have cited no authority to this
Court, and the facts in the record would not support,

App. 36
any claim by Newsome Law alleging malicious
prosecution, abuse of process, false imprisonment, the
tort of outrage, defamation, or invasion of privacy. But
the Newsome plaintiffs’ complaint, as amended, does
allege colorable intentional-interference-with-abusiness-relationship and conspiracy claims against
Cooper and Balch that might be held by Newsome Law.
We therefore review de novo the summary judgment
entered on those claims. SE Prop. Holdings, LLC v.
Bank of Franklin 280 So. 3d 1047, 1051 (Ala. 2019)
(“This Court applies a de novo standard of review to a
summary judgment.”).
Newsome Law’s intentional-interference claims are
based on e-mails that Cooper sent to their shared
banking clients seeking to obtain more legal work from
those clients for Cooper and Balch. In White Sands
Group, L.L.C. v. PRS II, LLC, 32 So. 3d 5, 14 (Ala.
2009), this Court clarified that the tort of intentional
interference with a business relationship includes the
following elements: “(1) the existence of a protectible
business relationship; (2) of which the defendant knew;
(3) to which the defendant was a stranger; (4) with
which the defendant intentionally interfered; and
(5) damage.” But, even if these elements are met, a
defendant can avoid liability by proving the affirmative
defense of justification. 32 So. 3d at 13. In entering the
summary judgment for Cooper and Balch, the trial
court concluded that they had proven justification as a
matter of law:
“[The] claims for intentional interference
against Cooper fail, first and foremost, because
of the competitor’s privilege -- the affirmative

App. 37
defense known as justification. Both Newsome
and Cooper are banking lawyers and Cooper was
justified in competing for the business of their
ongoing clients, IberiaBank, Renasant Bank,
and Bryant Bank. See Bama Budweiser of
Montgomery, Inc. v. Anheuser-Busch, Inc., 611
So. 2d 238, 247 (Ala. 1992) (‘[B]ona fide business
competition is a justification for intentional
interference with a competitor’s business.’);
Bridgeway Communications, Inc. v. Trio
Broadcasting, Inc., 562 So. 2d 222, 223 (Ala.
1990) (holding that legitimate economic motives
and bona fide business competition qualify as
justification for intentional interference with a
competitor’s business). Cooper was a competitor
of Newsome’s, represented the same banks as
Newsome, and was, thus, allowed to contact
those clients. Justification is a complete defense
to an intentional interference claim.”
The Newsome plaintiffs argue that the trial court
erred because justification is a question for the jury
and, in any event, does not apply when the defendant
has acted improperly. See White Sands Grp., 32 So. 3d
at 18-19 (explaining that “[j]ustification is generally a
jury question” and that the nature of the defendant’s
conduct is paramount and noting that, although
competitors are not necessarily expected to be
gentlemen, there is no privilege when devious and
improper means have been used). The Newsome
plaintiffs state that Cooper’s actions were outside the
bounds of lawful competition; we disagree. First, as
already explained, the Newsome plaintiffs have
produced nothing more than speculation to support

App. 38
their theory that Cooper was part of a conspiracy
involving Bullock, Seier, and Gottier. Second, although
the Newsome plaintiffs state that Cooper’s e-mails to
their shared banking clients cannot be considered
lawful competition because, the Newsome plaintiffs
allege, such solicitations are prohibited by the Alabama
Rules of Professional Conduct, they are simply wrong
in this regard. Solicitations made to current clients are
not barred by Rule 7.3, Ala. R. Prof. Cond., which
regulates the solicitation of “prospective clients” but by
its terms exempts solicitations to parties with whom an
attorney has a “current or prior professional
relationship.” See also Ala. State Bar Ethics Op. No.
2006-01, June 21, 2006 (“Current and former clients
are ... excluded from the prohibition against direct
solicitation. Due to their previous or ongoing
interaction with the attorney, current or former clients
will have a sufficient basis upon which to judge
whether to continue or reactivate a professional
relationship with a particular attorney.”). Moreover,
although Cooper forwarded news of Newsome’s arrest
and his mug shot to a friend who was an executive at
one of their shared banking clients, he did not
misrepresent any facts related to Newsome’s arrest,
and we do not consider this to be the sort of devious
and improper act that would defeat a justification
defense. See White Sands Grp., 32 So. 3d at 19-20
(describing acts of misrepresentation and concealment
that have defeated justification defenses in other
actions).
Finally, by indicating that justification is generally
a jury question, White Sands Group implicitly
recognized that a summary judgment may nonetheless

App. 39
be appropriate in instances where the party asserting
that affirmative defense carries its burden. 32 So. 3d at
20 (concluding that the defendant “failed to carry its
burden of showing that it is entitled to a judgment as
a matter of law on its affirmative defense of
justification”). This is such a case. The Newsome
plaintiffs have not put forth substantial evidence
indicating that Cooper acted improperly, and the trial
court therefore correctly held that the asserted
intentional-interference-with-business-relations claims
should not be submitted to the jury.12 And because
Cooper and Balch were entitled to a judgment as a
matter of law on Newsome Law’s intentionalinterference claims, they were also entitled to a
judgment as a matter of law on Newsome Law’s
conspiracy claims. See Alabama Psych. Servs., P.C. v.
Center for Eating Disorders, L.L.C., 148 So. 3d 708,
715 (Ala. 2014) (explaining that conspiracy is not an
independent cause of action and that, because “[the
plaintiff] did not prove its underlying cause of action
(intentional interference with business relations), [the
defendants] also were entitled to a [judgment as a
matter of law] as to [the plaintiff’s] conspiracy claim”).

12

To the extent Newsome may have personally asserted
intentional-interference claims against Cooper and Balch based on
e-mails Cooper sent to their shared clients that did not reference
Newsome’s menacing arrest, summary judgment was properly
entered in favor of Cooper and Balch on the basis of justification
even if those claims were not covered by the release clause in the
D&R order.

App. 40
D. The ALAA Awards
In accordance with the ALAA, the trial court
awarded attorney fees and costs to the defendants in
the following amounts: $56,283 for Balch; $56,317 for
Bullock; $78,341 for Seier; and $1,250 for Gottier. The
Newsome plaintiffs argue that those awards should be
reversed because, they argue, “the trial court’s
erroneous reliance on the counterfeit [expungementreversal] order infected its ALAA findings and [the
Newsome plaintiffs’] legal arguments regarding the
‘release’ were made in good faith.” Newsome plaintiffs’
brief, p. 91. For the reasons that follow, the awards
entered by the trial court are affirmed.
Section 12-19-272(a), Ala. Code 1975, provides that
a trial court “shall” award reasonable attorney fees and
costs when an attorney or party “has brought a civil
action, or asserted a claim therein, ... that a court
determines to be without substantial justification.”
“[W]ithout substantial justification” means that the
action “is frivolous, groundless in fact or in law, or
vexatious, or interposed for any improper purpose,
including without limitation, to cause unnecessary
delay or needless increase in the cost of litigation, as
determined by the court.” § 12-19-271(1), Ala. Code
1975. This Court has stated that “[t]he standard of
review for an award of attorney fees under the ALAA
depends upon the basis for the trial court’s
determination for the award.” McDorman v. Moseley,
[Ms. 1190819, September 18, 2020] ___ So. 3d ___, ___
(Ala. 2020). We further explained:
“If a trial court finds that a claim or defense is
without substantial justification because it is

App. 41
groundless in law, that determination will be
reviewed de novo, without a presumption of
correctness. Pacific Enters. Oil Co. (USA) v.
Howell Petroleum Corp., 614 So. 2d 409 (Ala.
1993). If, however, a trial court finds that a
claim or defense is without substantial
justification using terms or phrases such as
‘frivolous,’ ‘groundless in fact,’ ‘vexatious,’ or
‘interposed for any improper purpose,’ that
determination will not be disturbed on appeal
unless it is clearly erroneous, without
supporting evidence, manifestly unjust, or
against the great weight of the evidence. Id.”
Moseley, ___ So. 3d at ___. The trial court expressly
stated in its order awarding Balch, Bullock, Seier, and
Gottier attorney fees and costs that the Newsome
plaintiffs’ “claims were without substantial justification
because they were frivolous, groundless in fact,
vexatious, or were interposed for an improper purpose
of harassment, delay, or abusing discovery.”
Accordingly, we will reverse the awards made by the
trial court only if the Newsome plaintiffs show that
those awards were “clearly erroneous, without
supporting evidence, manifestly unjust, or against the
great weight of the evidence.” Id.
The Newsome plaintiffs argue that the awards
entered under the ALAA must be reversed because,
they say, the trial court erred by giving effect to the
expungement-reversal order and because, they say,
their arguments that the release was invalid were
made in good faith. We have already explained above
that the trial court did not err by relying upon the

App. 42
expungement-reversal order. Indeed, both the Court of
Criminal Appeals and this Court denied the petitions
that Newsome brought litigating this same point in
September 2017 and April 2018, respectively, and the
orders denying those petitions should have put the
Newsome plaintiffs on notice that their position lacked
merit. Nevertheless, the Newsome plaintiffs continue
to ignore those orders and maintain that the
expungement-reversal order was “counterfeit.” It was
not.
The Newsome plaintiffs also state that their
arguments that the release clause in the D&R order
was invalid were made in good faith and that the trial
court’s judgments should be reversed to the extent that
court held otherwise. We disagree. Newsome is an
attorney, and he executed the one-page D&R order
containing the release clause after consulting with
counsel. That release clause is unambiguous. Yet,
instead of abiding by the clear terms of the release
clause, Newsome sought to suppress the D&R order
using the expungement statutes. As the trial court
explained:
“Newsome exhibited bad faith in attempting to
have his Shelby County arrest (the very arrest
that resulted in his mug shot being taken and
began the debacle of this lawsuit) expunged with
the stated intent of using that expungement as
an offensive weapon against [the] defendants in
this lawsuit. The court takes judicial notice of
Newsome’s misrepresentation to the Circuit
Court of Shelby County, whereby he claimed to
be in compliance with all terms of his deferred

App. 43
prosecution agreement, including the release of
all related civil claims. The court takes further
judicial notice of the Shelby County court’s
finding that Newsome made a ‘false
representation’ regarding his claims in this
lawsuit constituting ‘false pretenses’ under
Alabama law. This finding was affirmed by the
Alabama Court of [Criminal] Appeals, and the
Alabama Supreme Court denied Newsome’s
petition for certiorari review. [The Newsome]
plaintiffs’ attempt to unlawfully use Alabama’s
expungement statute for the stated purposes of
attacking [the] defendants in this lawsuit is
further evidence of [the Newsome] plaintiffs’ bad
faith.”
The Newsome plaintiffs cannot maintain that their
arguments regarding the release clause were made in
good faith.
Moreover, although the Newsome plaintiffs focus
their arguments challenging the awards made under
the ALAA on the expungement-reversal order and the
release clause, the trial court explained that it was
making those awards not just because of the Newsome
plaintiffs’ questionable actions attempting to suppress
the D&R order, but because their entire lawsuit was
groundless in fact:
“Although the court first granted [the]
defendants summary judgment early on in this
case, [the Newsome] plaintiffs asked for further
opportunity to prove their claims. The court
granted them that opportunity[;] however, [the
Newsome] plaintiffs have provided no further

App. 44
credible evidence after conducting extensive
discovery than they had in 2015 when they filed
this action. Defendants continuously contended
[the Newsome] plaintiffs’ claims were fabricated,
outrageous, and entirely unsupported.
“....
“Despite [the] defendants’ repeated
assertions, including sworn testimony, that they
never knew each other before the filing of this
lawsuit, [the Newsome] plaintiffs refused to
voluntarily dismiss their conspiracy-related
claims. Further, during the course of additional
discovery, [the Newsome] plaintiffs produced no
admissible evidence of any kind supporting their
claims that these defendants knew each other
and conspired to commit any underlying act.
[The Newsome] plaintiffs could have dismissed
the amended conspiracy claims alleged against
Cooper, Balch, and Gottier once it learned from
Verizon that the telephone number that [the
Newsome] plaintiffs thought was their lynchpin
was only a routing number. However, they did
not.
“... Instead of reducing or dismissing invalid
claims and dismissing some or all of [the]
defendants, [the Newsome] plaintiffs ignored
contrary evidence and made no effort at
dismissal or reduction. Rather, [the Newsome]
plaintiffs continued to add invalid claims and a
new party, Gottier, in the face of clear evidence
that their claims were frivolous.”

App. 45
Considering the facts of the case, we agree with the
trial court that the ALAA awards are supported by the
evidence and appropriate under the circumstances.
Those awards are therefore affirmed.
Conclusion
The Newsome plaintiffs sued the defendants
asserting various claims based on their allegation that
the defendants combined together to have Newsome
arrested on a false menacing charge to damage his
reputation and law practice. But the Newsome
plaintiffs failed to produce substantial evidence
supporting their claims even after conducting extensive
discovery; the trial court therefore entered summary
judgments in favor of the defendants. The trial court
further awarded attorney fees and costs because the
Newsome plaintiffs had subjected the defendants to
almost three and a half years of litigation even though
the asserted claims were without substantial
justification. For the reasons explained herein, the
summary judgments entered by the trial court and its
awards of attorney fees are affirmed.
1180252 -- AFFIRMED.
1180302 -- AFFIRMED.
Parker, C.J., and Bolin, Shaw, Bryan, Mendheim,
Stewart, and Mitchell, JJ., concur.
Sellers, J., recuses himself.

App. 46

APPENDIX D
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: June 15, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER ON MOTION TO DISMISS
OF DON GOTTIER
The Court has reviewed and understands all
motions, the law, briefs provided, evidence submitted
and has heard oral arguments when all parties were
present and argued their respective positions. The
Court hereby finds as follows:

App. 47
Defendant Don Gottier is entitled to a judgment. It
is therefore ORDERED, ADJUDGED and DECREED
that Defendant Don Gottier’s Motion to Dismiss is
hereby granted and all claims asserted against Don
Gottier are dismissed with prejudice. Costs of court
incurred are taxed to the Plaintiffs.
The Court will accept a motion pursuant to the
Alabama Litigation Accountability Act from Defendant
Gottier within fourteen days from the date of the entry
of this Order. Plaintiff will have seven days thereafter
to file any response. Upon a review of these filings, the
Court will determine if a hearing and oral argument is
appropriate.
DONE this 15th day of June, 2018.
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 48

APPENDIX D
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: June 15, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER ON MOTION FOR SUMMARY
JUDGMENT BY JOHN F. BULLOCK
This matter came before the Court on Defendant
John F. Bullock’s Motion for Summary Judgment. The
parties were afforded an opportunity to file responses
and replies as appropriate and Defendant Bullock
joined in the various motions, responses, and replies of
the co-defendants. The parties and their attorneys

App. 49
appeared for hearing on the motions, responses, and
replies pending before the Court. Upon due
consideration of the filings, the arguments, and the
evidence, the Court hereby finds as follows:
FACTUAL BACKGROUND
1.

The material facts of this case are not in dispute
and Defendant Bullock is entitled to judgment
on Plaintiffs’ claims as a matter of law.

2.

Defendant Bullock was present in a parking
area shared by his Dentist and Plaintiffs’ law
firm on the morning of December 19, 2012.

3.

Defendant Bullock exited his vehicle and
Plaintiff Newsome approached Defendant
Bullock while holding a firearm in his hand.

4.

Plaintiff Newsome, while holding a firearm in
his hand, told Defendant Bullock to return to his
vehicle and Defendant Bullock complied.

5.

Defendant Bullock filed a police report and
complaint for menacing based on this incident.

6.

A warrant was issued by a Shelby County
Magistrate for Plaintiff Newsome’s arrest and
that warrant was executed on Plaintiff Newsome
during a traffic stop on May 4, 2013.

7.

On the date of the trial of the menacing case an
agreement was reached in which the Plaintiff
Newsome agreed to have no further contact with
Mr. Bullock, to have no further arrests, to pay
court costs, and to release various individuals
and entities from civil liability stemming

App. 50
directly or indirectly from that case, including
the complainant and any witness.
8.

Plaintiff Newsome, his attorney in the criminal
matter, an attorney for the Shelby County
District Attorney’s office, and Defendant
Bullock, the complaining witness in the criminal
case, signed the agreement.

9.

At the time of signing the release agreement,
Plaintiff Newsome had knowledge of a prior
incident in which he was menaced by a nonparty, Albert Seier, and had knowledge that
Defendant Cooper had sent an email mugshot of
Plaintiff Newsome’s arrest to one of Plaintiffs’
clients.

10.

Mr. Newsome’s criminal case was later
dismissed pursuant to the terms of the
agreement.

11.

The record reflects that no Defendant in this
action knew or had spoken to one another prior
to being sued by the Plaintiffs in this matter
and, of relevance, during the time periods of the
alleged conspiracy.

12.

Plaintiffs have not submitted substantial
evidence from which a reasonable juror could
conclude that the Defendants knew or spoke to
one another prior to the filing of this action and
during the relevant time periods as alleged by
the Plaintiffs.

App. 51
Based on the undisputed, material evidence:
a. Probable cause existed for Defendant
Bullocks’ filing of a charge of menacing in the
Shelby County District Court.
b. Plaintiff Newsome executed a valid and
binding release.
c. Plaintiffs have not presented a prima facie
case on their claims for malicious
prosecution, abuse of process, false
imprisonment, Outrage or Intentional
Infliction of Emotional Distress, Conspiracy,
Fraud, Misrepresentation, and Invasion of
Privacy.
d. Plaintiffs have not submitted substantial
evidence to dispute this evidence and cannot
rely on mere allegations and conjecture to
create a material dispute.
Pursuant to the requirements of the Alabama
Litigation Accountability Act the Court finds that this
action was filed by Plaintiffs and prosecuted by their
attorneys without substantial justification. This finding
is based on the following statutory and non-statutory
factors:
a. Plaintiff Newsome is a licensed and
practicing attorney in the State of Alabama.
b. Plaintiff Newsome knew or should have
known that the filing of this action was in
direct violation of a valid release he signed in
favor of Defendant John Bullock.

App. 52
c. Further, Plaintiff Newsome and his
attorneys by virtue of their position as legal
professionals knew or should have known
that this case was filed without substantial
justification in that there has not been a
dispute of fact from which a reasonable
person could infer that Defendant Bullock
was liable for the charges asserted against
him.
d. It is also apparent from the record that
Plaintiffs and their attorneys continued to
prosecute this action, through the filing of
superfluous and voluminous motions, the
taking of numerous lengthy depositions, and
the issuing of substantial numbers of
subpoenas despite clear, uncontroverted
evidence of the failures of Plaintiffs’ claims
against Defendant Bullock. The cumbersome
nature of the Plaintiffs’ discovery in this
case, the fact that it failed to yield evidence
supporting their claims, and the fact that it
was undertaken despite knowledge of the
failings in Plaintiffs’ case weighs heavily on
the Court’s decision.
e. The Court agrees with the recitation of the
statutory factors as outlined in Defendant’s
Motion and adopts the same.
The Court expressly reserves jurisdiction over this
matter to decide any issues related to Alabama
Litigation Accountability Act. The Court will consider
any further equitable relief to which John Bullock may
be entitled.

App. 53
Finally, the Court takes note of the Order of the
Circuit Court of Shelby County regarding the
expungement proceedings in which that Court
overturned Plaintiff Newsome’s expungement for filing
the same fraudulently and under false pretenses and
finding the release to be valid. The Court further notes
that the Court of Criminal Appeals denied Plaintiff
Newsome’s appeal of that order.
It is hereby ORDERED as follows:
Defendant, John F. Bullock’s Motion for Summary
Judgment is hereby granted. Plaintiffs’ claims against
Defendant Bullock and request for declaratory
judgment are dismissed with prejudice.
The Court will accept a motion pursuant to the
Alabama Litigation Accountability Act from Defendant
John F. Bullock within fourteen days of the date of the
entry of this Order. Plaintiff will have seven days to file
any response. Upon a review of these filings, the Court
will determine if a hearing and oral argument is
appropriate.
DONE this 15th day of June, 2018.
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 54

APPENDIX F
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: June 15, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER ON DEFENDANT CLAIBORNE
SEIER’S MOTION FOR SUMMARY JUDGMENT
The Court has reviewed and understands all
motions, the law, briefs provided, evidence submitted,
and has heard oral arguments when all parties were
present and argued their respective positions.
Accordingly, the Court hereby finds as follows:

App. 55
This matter came before the Court on Defendant
Claiborne Seier’s Motion for Summary Judgment. At
the time that the Motion for Summary Judgment was
filed, Plaintiff asserted claims against Defendant Seier
for Malicious Prosecution (Count I), Abuse of Process
(Count II), False Imprisonment (Count III), Outrage
(Count IV), and Conspiracy (Count V). Claims for
Invasion of Privacy, Fraud and Intentional Interference
with a Business Relationship were also alleged by the
Plaintiff in previously-filed Amendments. Plaintiff also
asserted claims related to the Release/Dismissal
agreement signed by the Plaintiff to bring about the
conclusion of his underlying criminal claims.
In briefing, Plaintiff did not oppose the Motion for
Summary Judgment as to his Outrage claim, one
portion of his Invasion of Privacy claim (specifically,
the false light, portion of that claim), and the
Intentional Interference claim asserted against
Defendant Seier. The Court finds the Defendant’s
Motion to be well-taken as to those claims, and
summary judgment is GRANTED in favor of Defendant
Seier as to Plaintiff’s claims for Outrage, Invasion of
Privacy (false light) and Intentional Interference.
The Court will address the remaining claims
asserted by the Plaintiff in turn:
I. Malicious Prosecution
As to Plaintiff’s malicious prosecution claim,
Defendant asserts that the dismissal of the underlying
criminal case was not a “favorable termination” of
those proceedings. Defendant challenged Plaintiff’s

App. 56
ability to state a prima facie case for malicious
prosecution.
The plaintiff in a malicious prosecution case must
prove each of the following elements: 1) that a prior
judicial proceeding was instigated by the defendant
2) without probable cause and 3) with malice; 4) that
the prior proceeding was terminated in the plaintiff’s
favor; and 5) that the plaintiff suffered damage as a
result of that prior proceeding.” Whitlow v. Bruno’s,
Inc., 567 So.2d 1235, 1237 (Ala.1990). The parties’
briefing appears to agree that the Alabama Supreme
Court’s decision in Chatman v. Pizitz, Inc., 429 So.2d
969 (Ala. 1983), is the applicable binding precedent
under which Plaintiff’s malicious prosecution claim
should be adjudicated.
Under Chatman, Plaintiff’s prima facie case of
malicious prosecution may be overcome by a showing
that dismissal of criminal charge was a component
element of a settlement or compromise agreement
between the parties. Where the defendant fails to come
forward with evidence of compromise, plaintiff’s proof
of nolle prosequi or order of dismissal of the criminal
charge meets “favorable disposition” requisite of the
claim as a matter of law. On the other hand, where
defendant’s proof of compromise is unchallenged by
plaintiff, notwithstanding plaintiffs proof of dismissal
of the criminal charge, defendant is entitled to
judgment as a matter of law.
In the case at bar, the dismissal of the underlying
criminal charges were the result of a settlement or
compromise agreement between the parties. The
testimony presented by the Plaintiff at summary

App. 57
judgment establishes the District Judge ordered the
parties to meet and confer regarding the potential for
settlement. Upon conclusion, the Release and
Dismissal Order was signed by the Plaintiff and
entered by the Court. The Final Order of Dismissal in
the District Court criminal case explicitly stated the
dismissal came as the result of an “earlier written
agreement.”
The Plaintiff accordingly cannot present evidence of
a “favorable termination” as would be necessary to
sustain a claim for malicious prosecution. Summary
judgment is accordingly granted as to this claim.
II. Abuse of Process
Under Alabama law, “[t]he elements of the tort of
abuse of process are 1) the existence of an ulterior
purpose, 2) a wrongful use of process, and 3) malice.”
C.C. & J., Inc. v. Hagood, 711 So.2d 947, 950
(Ala.1998). “The tort of abuse of process differs from
the tort of malicious prosecution; the tort of abuse of
process is concerned with ‘the wrongful use of process
after it has been issued,’ while the tort of malicious
prosecution is concerned with ‘the wrongful issuance of
process.’” Shoney’s, Inc. v. Barnett, 773 So.2d 1015,
1024 (Ala.Civ.App.1999) (quoting Hagood, 711 So.2d at
950). A defendant cannot be held liable for abuse of
process unless he or she “somehow acted outside the
boundaries of legitimate procedure after [the initiation
of the proceeding].” Hagood, 711 So.2d at 951.
Here, Plaintiff’s claims all arise out of his arrest and
prosecution for the crime of menacing. There is no
substantial evidence of any actions “outside the

App. 58
boundaries of legitimate procedure” after those charges
were brought. While Plaintiff argues that the Release
and Dismissal Order entered could support such a
claim, there is no evidence that said Release and
Dismissal Order was demanded by any party to this
litigation, or that the entry of such an order goes
“outside the boundaries of legitimate procedure.” The
Court therefore finds that summary judgment is due to
be GRANTED as to Plaintiff’s abuse of process claim.
III. False Imprisonment
Under Alabama law, however, an arrest and
imprisonment pursuant to a valid warrant cannot form
the basis for a false imprisonment claim. See, Blake v.
Barton Williams, Inc., 361 So. 2d 376 (Ala. Civ. App.
1978) (“If an arrest is made pursuant to a warrant
issued by a lawfully authorized person, neither the
arrest nor the subsequent imprisonment is ‘false,’ and,
as a consequence, the complaining party’s action must
be one for malicious prosecution.”). In the present case,
it is undisputed that Plaintiff was arrested pursuant to
a valid warrant issued by the Chief Magistrate of
Shelby County. Summary Judgment must accordingly
be granted with respect to Plaintiff’s false
imprisonment claims.
IV. Invasion of Privacy (Intrusion)
Under Alabama law, a defendant is liable for
invasion of privacy when he “intentionally intrudes,
physically or otherwise, upon the solitude or seclusion
of another or his private affairs or concerns ... if the
intrusion would be highly offensive to a reasonable
person.” Phillips v. Smalley Maintenance Services, Inc.,

App. 59
435 So. 2d 705, 707 (Ala. 1983) A court, in determining
whether a reasonable person would consider the
conduct “highly offensive,” will consider: (1) whether
the subject of the intrusion is information that is
private or entitled to be private; see Hogin v.
Cottingham, 533 So. 2d 525, 531 (Ala. 1988). (2) the
means of intrusion; Alabama Elec. Co-op., Inc. v.
Partridge, 284 Ala. 442, 445, 225 So. 2d 848, 850
(1969); Hogin, supra; and (3) the purpose for which the
information was obtained. See Hogin, supra. The
intrusion may be upon a physical place, or a person’s
“emotional sanctum.”
The wrongful intrusion prong of the tort of invasion
of privacy protects against intentional interference
with another’s interest in solitude or seclusion, either
as to his person or to his private affairs or concerns; for
an action to lie, there must be something in the nature
of prying or intrusion, with the intrusion something
which would be offensive or objectionable to a
reasonable person, and the thing into which there is
intrusion or prying must be, and be entitled to be,
private. 2 Ala. Pers. Inj. & Torts § 12:28 (2016 ed.)
The present case is not about private information
being inquired into or obtained by the Defendants – it
is about the Plaintiff’s prosecution for the crime of
menacing. A claim for invasion of privacy through
wrongful intrusion does not appear to be stated on
those facts, and the Plaintiff has directed the Court to
no precedent supporting that contention. Further,
there does not appear to be any direct intrusion by any
party into this case into the Plaintiff’s physical or
emotional solitude. Rather, these claims seem to

App. 60
merely be an attempted restatement of Plaintiff’s
malicious prosecution claim. Summary judgment is
accordingly due to be granted as to this claim.
V. Conspiracy
Under Alabama law “[a civil] conspiracy cannot
exist in the absence of an underlying tort.” Willis v.
Parker, 814 So.2d 857, 867 (Ala.2001). “‘[L]iability for
civil conspiracy rests upon the existence of an
underlying wrong and if the underlying wrong provides
no cause of action, then neither does the conspiracy.’”
Id. (quoting Jones v. BP Oil Co., 632 So.2d 435, 439
(Ala.1993)). In the present case, as set forth
hereinabove, the Plaintiff cannot state a claim against
this Defendant for any independent tort claim. He
likewise cannot state a tort claim against any alleged
co-conspirator on any of those common causes of action.
Moreover, premise of Plaintiffs’ conspiracy – the
alleged common telephone number, (205) 410-1494 – is
suspect. The phone number’s owner, Verizon Wireless,
has testified under oath that it was a routing number
for wireless calls places in the Birmingham area that
cannot be traced back to or attributed to any one
telephone number. Verizon further testified that it had
been such a routing number since 2007, and that it had
not been ported, transferred or assigned to any other
person or entity, or used for any purpose other than a
routing number during that time period. This was
confirmed by an affidavit filed by the Plaintiff from
John Manning, the Director of the North American
Numbering Plan, that the (205) 410- prefix belongs to
Verizon and has at all time relevant to this case.

App. 61
Moreover, evidence was presented at the hearing
showing the (205) 410-1494 routing number being
utilized during calls from the Defendant’s Verizon cell
phone to his home phone, with the 205-410-1494
number appearing alongside the Verizon cell phone
number as the ATT Corporate Representative testified
would occur. See Doc. 1688, Deposition of Darko
Gospavic at pp. 13-14; Doc. 1664, Phone Records for
Defendant Claiborne P. Seier’s Home Phone Number,
205-823-7990 at p. 4 (showing Defendant Seier’s
personal Verizon cell phone number, 205-915-2020,
being routing through the 205-410-1494 number during
calls placed to his home).
In response to this evidence, Plaintiff makes a
number of arguments, First, Plaintiff attempts to argue
that the Deposition of Verizon’s representative should
be stricken on evidentiary grounds. These can be
generally summarized as stating that the witness did
not have a sufficient foundation to provide the
testimony given regarding the subject phone number.
Generally speaking, however, the witness merely
testified to the company’s ownership of the asset –
something that Alabama law allows without further
predicate. Plaintiff’s Motion to Strike and related
arguments is accordingly denied.
Plaintiff additionally presents an affidavit from a
previously-undisclosed witness, Robert Serrett, to
advance the proposition that the number belonged to
some sort of prepaid calling card or phone from Mr.
Serrett’s former employer, Ciera Network Systems.
According to public records provided, Ciera ceased
operations in 2003, after filing for Chapter 7

App. 62
bankruptcy. Mr. Serrett’s affidavit demonstrates no
basis for any personal knowledge after 2003. Further,
his testimony appears to amount to an expert opinion
based on his interpretation of documents provided to
him by the Plaintiff. Coming long after the applicable
disclosure deadlines have passed, tho Court will not
construe this affidavit as creating a genuine issue of
material fact.
Last, Plaintiff makes the argument that the number
could have been “spoofed” to show a different number.
There is simply no evidence before the Court to support
such a claim. A Court cannot rely on what could have
happened as such is speculation without proof to
establish the matter before the Court.
Defendant Seier’s Motion for Summary Judgment
is accordingly due to be granted as to Plaintiff’s civil
conspiracy claim.
VI. Remaining Claims and Issues
Plaintiff additionally makes a number of claims and
motions related to the execution of the Release/
Dismissal Agreement. Because the Court does not rely
on the general release of claims contained in that
agreement to dispose of any of claims asserted against
Defendant Seier, those claims and motions are moot
and therefore dismissed and/or denied.
Plaintiff’s Motion for Partial Summary Judgment on
the issue of Probable Cause is similarly denied.
The claims of Newsome Law fail in their entirety
because there has been no evidence that Newsome
Law, as a separate legal entity, either has standing to

App. 63
pursue, or was damaged by the torts pursued against
this Defendant, Summary judgment is accordingly
granted as to all claims asserted by Newsome Law
LLC.
VII. Defendant’s Motion Under the Alabama
Litigation Accountability Act
Defendant Seier filed a Motion for Attorneys’ Fees
under the Alabama Litigation Accountability Act on
July 2, 2015. That motion was granted by this Court
with leave to prove damages before it then vacated its
previously-entered Orders to allow the Plaintiff
additional time to conduct discovery. As set forth
above, however, the Plaintiffs’ claims fail in their
entirety for legal reasons that remain unchanged since
Plaintiffs’ original filing in 2015. The Court further
stated that it would withhold ruling on this and other
issues brought to the Court’s attention during the
pendency of the case at the conclusion of discovery. The
Court will accept a renewed motion pursuant to the
Alabama Litigation Accountability Act from Defendant
Seier within fourteen days of the date of the entry of
this Order. Plaintiff will have seven days to file any
response. Upon a review of these filings, the Court will
determine if a hearing and oral argument is
appropriate.
DONE this 15th day of June, 2018.
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 64

APPENDIX G
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: June 15, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER ON MOTION FOR SUMMARY JUDGMENT
OF CLARK ANDREW COOPER AND
BALCH & BINGHAM, LLP
The Court has reviewed and understands all
motions, the law, briefs provided, evidence submitted,
and has heard oral arguments when all parties were
present and argued their respective positions.
Accordingly, the Court hereby finds as follows:

App. 65
Factual Background
Burt Newsome is a practicing lawyer whose office is
located in a strip mall two doors down from Dr. Lora
Gaxiola, a dentist, and they share the same parking lot.
On the morning of December 19, 2012, Defendant John
Bullock was getting out of his car in the parking lot to
go to Dr. Gaxiola to have a crown reset. As Bullock was
exiting his car, Newsome pulled out a loaded handgun
and ordered him to get back into his car until Newsome
left. Bullock did so.
After Newsome drove off, Bullock got out of his car
and went into his dentist’s office, told them someone
had pulled a gun on him, and then proceeded to have
his crown reset. After his dental procedure was over,
Bullock called the police and filed a police report
regarding the incident with the Shelby County Sheriff’s
office. Bullock also filed a criminal complaint for
menacing against Burt Newsome and a warrant was
issued for Newsome’s arrest.
On May 2, 2013, Newsome was arrested on the
menacing charge and warrant after he was stopped for
speeding. Newsome’s mug shot was taken during his
arrest and published online on the Shelby County
Sheriff’s website. After being arraigned in the District
Court of Shelby County, Alabama, Newsome entered
into a deferred prosecution agreement by signing a
“Dismissal and Release Order,” which was also signed
by John Bullock, the District Attorney, Newsome’s
attorney, and the District Judge of Shelby County on
November 12, 2013. The agreement contained general
release language stating Newsome released “all civil
and criminal claims stemming directly or indirectly

App. 66
from this case...to any other complainants...or persons
in any way related to this matter.” Under the
agreement, the matter was dismissed with prejudice on
April 4, 2014, since Newsome had no
Cooper testified that he sent emails such as
these as his personal marketing strategy and a
way to stay in touch with his clients and did not
intend to take the cases away from Newsome.
None of the cases referenced were ever taken
from Newsome and reassigned to Cooper. Brian
Hamilton from Iberiabank, the recipient of 2 of
the 3 marketing emails, testified that he did not
consider any of Cooper’s emails or any
conversations he had with Cooper to be an
attempt by Cooper to have him replace Newsome
on any of Newsome’s cases at Iberiabank.
In Plaintiffs’ Fourth Amended Complaint, Plaintiffs
allege a conspiracy between Clark Cooper, John
Bullock, Claiborne Seier, and Don Gottier to have
Newsome arrested for the charge of menacing,
Newsome alleged Defendant Claiborne Seier was
connected to this lawsuit as follows: In 2010, Newsome
sued Alfred Seier’s wife, Sharon Lawson, on behalf of
a bank to obtain a judgment against her. In January
2012, Alfred Seier apparently went to Newsome’s office
and pulled a gun on Newsome and told him to leave his
wife alone. Subsequently, Newsome filed a criminal
complaint against Alfred Seier for menacing and Alfred
was later arrested and ultimately convicted of that
crime. Alfred Seier has since passed away. Alfred’s
brother is Claiborne Seier, an attorney. Claibome
contacted Newsome during these events and asked him

App. 67
to drop the criminal charges against his dying brother
Alfred. Newsome refused.
Newsome alleged that Gottier was a member of a
conspiracy against him because Newsome’s research
allegedly showed that Gottier had owned a phone
number – (205) 410-1494. From this number Cooper,
Bullock, and Seier had purportedly received calls in the
2012-2015 time frame. The evidence shows the calls
were only incoming and none were outgoing, so
Newsome does not and cannot allege Seier, Cooper, or
Bullock ever called Gottier or each other. No evidence
has been presented to this Court of the content of any
of the discussions during any of these alleged calls. The
testimony from Verizon Wireless is that it has owned
the number 205-410-1494 since 2007 and that it has
been a routing number in their system since that time.
This means no subscriber or customer has been
assigned the number since 2007, including Don Gottier.
Gottier testified that the number was not his phone
number and never had been. An AT&T representative
testified that a routing number “is a number used to
route a call or to carry a call” and that “[i]t’s not an
actual number assigned to a customer.”
Moreover, the evidence before the Court also shows
that none of the defendants knew each other before this
lawsuit. John Bullook, Claiborne Seier, Clark Cooper
and Don Gottier all testified that they did not know
each other and never had any communications with
each other prior to this lawsuit.

App. 68
Pending Claims
Plaintiffs’ Fourth Amended Complaint and various
previous amendments set forth the following claims at
issue:
1.

Malicious prosecution against John Bullock,
Claiborne Seier, Don Gottier, and Clark Cooper.

2.

Abuse of process against John Bullock,
Claiborne Seier, Don Gottier, and Clark Cooper.

3.

False imprisonment against John Bullock,
Claiborne Sier, Don Gottier, and Clark Cooper.

4.

Outage/intentional infliction of emotional
distress against John Bullock, Claiborne Seier,
Don Gottier, and Clark Cooper.

5.

Intentional interference with Newsome’s
contractual and business relations with
Iberiabank Corp., Renasant Bank, and Bryant
Bank against Clark Cooper.

6.

Defamation against Clark Cooper.

7.

Conspiracy against Clark Cooper
unidentified fictitious defendants.

8.

Conspiracy against John Bullock, Claiborne
Seier, Don Gottier, and Clark Cooper.

9.

Invasion of Privacy (intrusion upon seclusion
and false light) against Clark Cooper.

10.

Vicarious liability/respondeat superior against
Balch & Bingham.

and

App. 69
11.

Cooper and Balch filed an answer alleging a
counterclaim for abuse of process and have filed
a claim under the Alabama Litigation
Accountability Act and Alabama Rule of Civil
Procedure 11.

12.

On September 1, 2017, Defendants Balch and
Cooper simultaneously filed a motion to dismiss
or strike Plaintiffs’ Fourth Amended Complaint
and moved for summary judgment on all of the
additional claims asserted in the Fourth
Amended Complaint.
Analysis of Claims

The defamation claim against Cooper fails as a
matter of law first because the truth is a complete
defense to defamation. Federal Credit, Inc. v. Fuller, 72
So. 3d 5, 9-10 (Ala. 2011) (“[T]ruth is a complete and
absolute defense to defamation. . . . Truthful
statements cannot, as a matter of law, have defamatory
meaning.”); S.B. v. Saint James Sch., 959 So. 2d 72, 100
(Ala. 2006). It is undisputed that Newsome pulled a
gun on Bullock, was subsequently arrested for
menacing, and had his mug shot taken. Thus, Copper
forwarding Newsome’s mug shot for menacing was not
a false statement, rather it was a true statement, and
the defamation count fails. Additionally, any claim
related to an allegedly implied defamatory statement
also fails. Alabama does not allow the Court to infer
implied defamatory meanings from writings, as stated
by the Alabama Supreme Court in S.B. v. Saint James
Sch., 959 So. 2d 72, 100 (Ala. 2006) (affirming
summary judgment on the defamation claim and
holding that courts may not infer or assume any

App. 70
certain meaning from an allegedly defamatory
statement or article).
Thus, the Court will not infer any implied meaning
from Cooper’s mug shot email questioning the effect of
Newsome’s menacing arrest on his law licence. Based
on the undisputed evidence, including Hamilton’s
testimony and Cooper’s testimony, the Court finds that
the mug shot email does not contain a false statement.
Thus, the “false statement” element of defamation is
not satisfied and Plaintiffs’ defamation claim fails as a
matter of law for this additional reason.
Newsome’s claims for intentional interference
against Cooper fail, first and foremost, because of the
competitor’s privilege – the affirmative defense known
as justification. Both Newsome and Cooper are banking
lawyers and Cooper was justified in competing for the
business of their ongoing clients, Iberiabank, Renasant
Bank, and Bryant Bank. See Bama Budweiser of
Montgomery, Inc. v. Anheuser-Busch, Inc., 611 So. 2d
238, 247 (Ala. 1992) (“[B]ona fide business competition
is a justification for intentional interference with a
competitor’s business;” Bridgeway Commun., Inc.
(WMML Radio Station-1410 AM) v. Trio Broad, Inc.
(WBLX Radio Station-93 FM), 562 So. 2d 222, 223 (Ala.
1990) (holding that legitimate economic motives and
bona fide business competition qualify as justification
for intentional interference with a competitor’s
business.
Cooper was a competitor of Newsome’s, represented
the same banks as Newsome, and was, thus, allowed to
contact those clients. Justification is a complete
defense to an intentional interference claim. Second,

App. 71
the intentional interference claims fail as a matter of
law because Plaintiffs have presented no credible
evidence to support a finding of the third element of
intentional interference – that Cooper intentionally
interfered with Newsome’s employment relationship
with the financial institutions complained of –
Iberiabank Corp., Renasant Bank,[4] or Bryant Bank.
See, Hurst v. Alabama Power Co., 675 So. 2d 397, 399
(Ala. 1996). Rather, Plaintiffs have only provided
speculation, which does not withstand summary
judgment. See id. at 400 (“mere conclusory allegations
or speculation that fact issues exist will not defeat a
properly supported summary judgment motion, and
bare argument or conjecture does not satisfy the nonmoving party’s burden to offer facts to defeat the
motion”). Third, Plaintiffs’ intentional interference
claim also fails because the evidence shows Plaintiffs
have not been damaged monetarily as a result of any
alleged interference of Cooper. Evidence established
Newsome’s legal fee revenues with Iberiabank
increased after Cooper forwarded the mug shot to
Iberiabank. For all of these reasons, Plaintiffs claims
for intentional interference fail as a matter of law.
Newsome’s conspiracy count related to defamation
and intentional interference fails as a matter of law
because 1) there is no viable underlying cause of action
for defamation or intentional interference, Alabama
Psych. Servs. v. Ctr. for Eating Dis., 148 So. 3d 708, 715
(Ala. 2014), and 2) there is no agreement between two
or more persons since Newsome has failed to identify
the alleged fictitious party that Cooper allegedly
conspired with. Eidson v. Olin Corp., 527 So. 2d 1283,
1285. (Ala. 1988).

App. 72
On the record during the summary judgment
hearing, Plaintiffs waived their claim for invasion or
privacy for intrusion into the plaintiff’s physical
solitude or seclusion.
Newsome’s false light invasion of privacy count fails
because there is no publicity; no falsity, and no private
information. That Newsome was arrested for menacing
and had his mug shot taken by law enforcement
authorities is not false. Those facts are undisputed. Nor
is it private as his arrest and mug shot were public
information published online by the Shelby County
Sheriff’s office. See Regions Bank v. Plott, 897 So. 2d
239, 244 (Ala. 2004); S.B. v. Saint James Sch., 959 So.
2d 72, 93 (Ala. 2006) (“A false-light claim does not
require that the information made public be private,’
but it does require that ‘the information ... be false.”);
see also ,I.C.U. Investigations, Inc. v. Jones, 780 So. 2d
685, 692 (Ala. 2000) (there is no invasion of privacy
liability for the examination of a public record).
Further, Cooper only sent Newsome’s mug shot to one
person at Iberiabank, that does not constitute publicity,
which requires making a matter public by
communicating it to the pubic at large or to so many
persons that the matter must be regarded as
substantially certain to become one of public
knowledge. See Ex parte Birmingham News, Inc., 778
So. 2d at 818. That is not the case here. Accordingly,
Plaintiffs’ invasion of privacy claim fails as a matter of
law.
Plaintiffs’ Malicious Prosecution count fails because
there is no competent evidence Cooper had anything to
do with the menacing prosecution, the State of

App. 73
Alabama v. Burton Wheeler Newsome criminal case in
the Circuit Court of Shelby County, Alabama, Case No.
58-CV-2013-001434 (“Newsome Menacing Case” or
“prior judicial proceeding”) in which Plaintiff Burt
Newsome was charged and arrested for the crime of
menacing. Specifically, 1) Clark Cooper did not
instigate the prior judicial proceeding, John Bullock
did; see Alabama Power Co. v. Neighbors, 402 So. 2d
958, 962 (Ala. 1981), 2) John Bullock had probable
cause to do so since Newsome pulled a gun on him, see
Alabama Power Co. v. Neighbors, 402 So. 2d 958, 96667 (Ala. 1981) (“the mere fact the plaintiff was
acquitted of the charge does not prove that there was
no probable cause to believe him or her guilty at the
time the warrant was issued.”), 3) Bullock bringing a
criminal action against Newsome for pulling a gun on
him is without malice, see Ennis v. Beason, 537 So. 2d
17, 20 (Ala 1988), and 4) the prior proceeding was not
terminated in Newsome’s favor, rather he agreed with
the prosecutor to defer prosecution. See Wesson v. WalMart. Stores E., L.P., 38 So. 3d 746, 752 (Ala. Civ. App.
2009) (citing Chatman v. Pizitz, Inc., 429 So. 2d 969,
970 (Ala. 1983)). Accordingly, Plaintiffs’ malicious
prosecution claim fails as a matter of law.
Plaintiffs’ Abuse of Process claim also fails as a
matter of law because there is no competent evidence
Cooper had anything to do with the prior judicial
proceeding concerning menacing, thus there is no
wrongful use of process. See Haynes v. Coleman, 30 So.
3d 420, 425 (Ala. Civ. App. 2009) (quoting C.C. & J.,
Inc. v. Hagood, 711 So. 2d 947, 950 (Ala. 1998)).

App. 74
Plaintiffs’ False Imprisonment claim also fails as a
matter of law because there is no competent evidence
Cooper had anything to do with Bullock instigating an
arrest warrant against Newsome for menacing.
Moreover, “[t]he law in Alabama is clear that a plaintiff
is not entitled to recover for false arrest or
imprisonment where he or she is arrested pursuant to
a valid warrant issued by a lawfully authorized
person.” Ennis v. Beason, 537 So. 2d. 17, 19 (Ala. 1981)
(citing Blake v. Barton Williams, Inc., 361 So. 2d 376
(Ala. Civ. App. 1978)). “Under such circumstances,
neither the arrest nor the subsequent imprisonment is
false.” Id. Since Newsome was arrested pursuant to a
valid arrest warrant issued by the Circuit Court of
Shelby County, Plaintiffs also cannot make out a claim
for false imprisonment. As such, Plaintiffs’ false
imprisonment claim fails as a matter of law.
Plaintiffs’ Outrage/Intentional Infliction of
Emotional Distress fails because Plaintiffs only allege
a recitation of the elements of the tort-of-outrage claim
and has not provided any facts or evidence to support
that claim. “The tort of outrage is an extremely limited
cause of action. It is so limited that this Court has
recognized it in regard to only three kinds of conduct:
(1) wrongful conduct in the family-burial context, Whitt
v. Hulsey, 519 So. 2d 901 (Ala. 1987); (2) barbaric
methods employed to coerce an insurance settlement,
National Sec. Fire & Cas. Co. v. Bowen., 447 So. 2d 133
(Ala. 1983); and (3) egregious sexual harassment Busby
v. Truswal Sys. Corp., 551 So. 2d 322 (Ala 1989).”).
Plaintiffs have failed to establish the actions by Cooper
could in any way amount to conduct that caused any
emotional distress to Plaintiffs. Thomas v. Williams, 21

App. 75
So. 3d 1234, 1237-38 (Ala. Civ. App. 2008) (“The
conduct must be “so outrageous in character and so
extreme in degree as to go beyond all possible bounds
of decency, and to be regarded as atrocious and utterly
intolerable in a civilized society.”) This Court finds
sending an accurate mug shot of someone who has been
arrested is not outrageous. As such, Plaintiffs’ tort-ofoutrage/intentional infliction of emotional distress
claim fails as a matter of law.
Plaintiffs also allege a conspiracy between
Clairborne Seier, Clark Cooper, John Bullock, and Don
Gottier to have Newsome arrested for the charge of
menacing. A conspiracy requires an agreement to
commit a civil wrong. See Bayles v. Marriott, 816 So. 2d
38, 43 (Ala. Civ. App. 2001). Moreover, “Alabama law
is clear that a conspiracy is not an independent cause
of action; therefore, when alleging conspiracy, a
plaintiff must have a viable underlying cause of
action.” Alabama Psych. Servs. v. Ctr. for Eating Dis.,
148 So. 3d 708, 715 (Ala. 2014) (citing Drill Parts &
Servs. Co. v. Joy Mfg. Co., 619 So. 2d 1280, 1290 (Ala.
1993). Here, Plaintiffs conspiracy claim related to
malicious prosecution, abuse of process, and false
imprisonment fails because Plaintiffs have failed to
produce substantial evidence of an agreement between
the parties and because Plaintiffs have failed to prove
the underlying torts of malicious prosecution, abuse of
process, and false imprisonment. Thus, this conspiracy
claim fails as a matter of law.
Finally, Plaintiffs’ vicarious liability/respondeat
superior count fails as a matter of law against Balch
because Newsome has provided absolutely no evidence

App. 76
that Cooper is liable for any wrongdoing whatsoever.
See ,Stephens v. City of Butler, Ala., 509 F. Supp. 2d
1098, 1116 (S.D. Ala. 2007) (concluding that for an
employer to be liable under respondeat superior for an
employee’s action, the employee must first be found
liable for a tort).
While Balch and Cooper moved for summary
judgment on their abuse of process counterclaim, they
subsequently waived that claim.
In sum, the Court finds that there are no genuine
issues of material fact on any of the Plaintiffs’ claims
against the Defendants Balch and Cooper, and that
Balch and Cooper, therefore, are entitled to a judgment
as a matter of law.
It is therefore, ORDERED, ADJUDGED AND
DECREED that all claims asserted against Clark
Andrew Cooper and Balch & Bingham LLP by
Plaintiffs are hereby dismissed with prejudice, costs
taxed against the Plaintiffs. Based upon Balch and
Cooper’s waiver of their counterclaim for abuse of
process, this counterclaim is dismissed with prejudice.
The Court expressly reserves jurisdiction over this
matter to decide the issues related to Alabama
Litigation Accountability Act sanctions, as the Court
has been informed that a Rule 11 letter warning of
Alabama Litigation Accountability Act sanctions was
sent to the Plaintiffs by Blach earlier in this lawsuit.
The Court will accept a renewed motion pursuant to
the Alabama Litigation Accountability Act from
Defendants Clark Andrew Cooper and Balch &
Bingham, LLP, within fourteen days of the date of the

App. 77
entry of this Order. Plaintiff will have seven days to file
any response. Upon a review of these filings, the Court
will determine if a hearing and oral argument is
appropriate.
DONE this 15th day of June, 2018.
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 78

APPENDIX H
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: November 27, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER
The Court has reviewed the Plaintiffs’ Motion to
Alter, Amend, or Vacate the Orders granting Summary
Judgment in favor of the defendants and the Motion to
Dismiss Don Gottier filed pursuant to Ala. R. Civ. P.
59(e), doc. 2154, the Plaintiffs’ Rule 60(b)(2) Motion for
Relief from Orders Granting Summary Judgment in
favor of Defendants on Grounds on Newly Discovered

App. 79
Evidence, doc. 2180, and the Plaintiffs’ Objection to
Motion to Quash Discovery Requests Related to
Defendants’ Motions for Attorney Fees, Motion to
Compel Discovery of all Documents Related to the
Reasonableness of the Attorney Fees Sought, Motion to
Deny Attorney Fees or Any Redacted Time Entries, and
Motion to Deny Defendants Request for Attorney Fees
under Ala. Code § 12-19-272, doc. 2177, as well as all
related responses and replies and heard oral
arguments on September 5, 2018, when all parties
were present.
Upon due consideration, the Court hereby denies
Plaintiffs’ Motion to Alter, Amend, or Vacate pursuant
to Ala. R. Civ. P. 59(e), denies Plaintiffs’ Rule 60(b)(2)
Motion for Relief, and denies Plaintiffs’ Objection to
Motion to Quash Discovery Requests Related to
Defendants’ Motions for Attorney Fees, Motion to
Compel Discovery of all Documents Related to the
Reasonableness of the Attorney Fees Sought, Motion to
Deny Attorney Fees on Any Redacted Time Entries,
and Motion to Deny Defendants Request for Attorney
Fees under Ala. Code § 12-19-272.
Plaintiffs have not introduced legitimate newly
discovered evidence previously unavailable nor shown
any manifest errors of law or fact to warrant setting
aside this Court’s judgment. Bradley v. Town of Argo,
2 So. 3d 819, 823 (Ala. 2008), Further, Plaintiffs have
failed to present newly discovered evidence which
invokes the provisions of Ala. R. Civ. P., Rule 60(b).

App. 80
DONE this 27th day of November, 2018.
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 81

APPENDIX I
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: December 7, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
Order
In the Orders of this Court dated June 15, 2018
granting Defendant John Bullock, Claiborne Seier,
Balch & Bingham, LLP and Clark Cooper’s Motions for
Summary Judgment, docs. 2027, 2032, 2015, and in the
Order granting Defendant Don Gottier’s Motion to
Dismiss, doc. 2038, the Court expressly retained

App. 82
jurisdiction over this matter to decide any issues
related to the Alabama Litigation Accountability Act.
TheAlabama Litigation Accountability Act (“ALAA”)
recognizes that the costs oflitigation can encourage
litigants to abuse the judicial system by filingfrivolous
lawsuits. To deter this behavior and allow innocent
parties besiegedby litigation to be made whole, the Act
allows a litigant to recover reasonableattorneys’ fees
and costs from an adversary when the court determines
that thesuit lacked “substantial justification.” Alabama
Code § 12-19-272(a). The ALAAdefines the phrase
“without substantial justification” to include an “action,
claim,defense or appeal (including any motion) [that] is
frivolous, groundless in factor in law, or vexatious, or
interposed for any improper purpose, including
withoutlimitation, to cause unnecessary delay or
needless increase in the cost of litigation,as determined
by the court.” Shealy v.Golden, 959 So. 2d 1098, 110405 (Ala. 2006) (quoting 12-19-27(1))(emphasis added).
Indeciding whether to assess attorneys’ fees and
costs and, if so, in whatamount, courts must look to a
non-exclusive list of 12 factors:
1.

The effort made, ifany, to determine the
validity of the claim before asserting it;

2.

The effort made, ifany, to reduce or dismiss
invalid claims after the action commenced;

3.

The availability offacts in determining the
action’s validity;

4.

The parties’ relativefinancial position;

App. 83
5.

Whether the action wasprosecuted in bad
faith or for an improper purpose, either in
whole or in part;

6.

Whether fact issueswere reasonably in
conflict;

7.

If there were multipleclaims, the number of
claims that the prevailing party succeeded
on;

8.

The effort made, if any, to assert a claim in a
good faith attempt to establish a new theory
oflaw;

9.

The amount or conditions of any settlement
offer compared to the amount or
conditionersultimately granted by the court;

10.

The effort made beforefiling the action to
determine that all parties sued or joined
were properparties owing a legally defined
duty to the defendant;

11.

The effort made, ifany, to reduce the number
of parties to the action; and

l2.

The time period available to an attorney for
a party before asserting a defense.

Ala. Code § 12-19-273(1)-(12).
As interpreted by the Alabama Supreme Court, the
ALAA provides for the trial courtto consider the
outcome of the proceedings in determining whether a
party’saction was without substantial justification–
here, summary judgment on all of Plaintiffs’ claims in

App. 84
favor of Defendants. See Baker v. Williams Bros.,
Inc.,601 So. 2d 110, 112 (Ala. Civ. App. 1992) (citing
Meek v. Diversified Prods. Corp., 575 So. 2d 1100 (Ala.
1991)). “[I]f a trial court determines that a
party’saction, claim, or defense is ‘without substantial
justification,’ based on thcapplicability of any one of
[the aforementioned terms or phrases in §12-19-271(1)],
that determination will not be disturbed on appeal
‘unless it isclearly erroneous, without supporting
evidence, manifestly unjust, or againstthe great weight
of the evidence.”’ Shealy, 959 So. 2d at 1105.
The parties have been afforded an opportunity to
filesupplements, responses and replies as appropriate
and a hearing was held onthis and other various
motions on September 5, 2018. The parties and
theirattomeys appeared for hearing on the motions,
responses, and replies pendingbefore the Court and
upon due consideration of the filings, the arguments,
andthe evidence, the Court finds as follows:
The Court made findings in its Orders dated June
15, 2018and incorporates those findings and legal
conclusions in this Order. Inaddition, the Court makes
the following factual and legal findings:
Although the Court first granted Defendants
summaryjudgment early on in this case, Plaintiffs
asked for further opportunity toprove their claims. The
Court granted them that opportunity, but, however,
Plaintiftshave provided no further credible evidence
after conducting extensive discoverythan they had in
2015 when they filed this action. Defendants
continuously contended Plaintiffs’ claims were
fabricated, outrageous, and entirely unsupported.

App. 85
Inapplying the twelve statutory factors used to decide
if the Court should awardattorneys’ fees and costs, the
weight of the factors favor doing so here. See Ala. Code
§ 12-19-273.
Plaintiffs have never had any credible, material
evidenceto connect Defendants to Newsome’s arrest for
menacing or to each other in anyconspiracy. Newsome
specifically statedthat his Fourth Amended Complaint,
which added Don Gottier as a Defendant andadded
Cooper to the Newsome menacing incident, “is based on
telephone rccordsthe plaintiffs first received from
AT&T by email on Friday, June 23, 2017.” SeeFourth
Am. Compl, p. 1, fn. 1. Newsomeappeared to allege that
Gottier, a 78-year-old man with a heart condition, hada
prepaid phone with the phone number 205-410-1494
and called the Defendants usingthis phone, including
Cooper, at or near the time of events related to
theNewsome menacing incident in 2012-2013, on
through 2015. SeeFourth Am. Compl., at ¶ 63.1.
Significantly,Newsome did not allege that any of the
Defendants ever called Gottier. See, generally, id. The
addition of Cooperto these counts was solely based on
a conspiracy theory involving this isolatedphone
number. However, the alleged number upon which
Plaintiffs relied totry to connect each of the Defendants
in the conspiracy allegation wasdisproven before
Plaintiffs amended their Complaint a third and fourth
time. Plaintiffs’ investigator heard from thealleged
orchestrator himself, Gottier. Theinvestigator learned
that this was not Gottier’s number, that it had never
beenhis number, that the Calera Police had confirned
it was not his number, andthat he did not know any of
the other Defendants. Further, after Plaintiffs brought

App. 86
this actionagainst Gottier, the investigator sent Gottier
several messages apologizingthat he was being pulled
into this frivolous lawsuit.
Moreover, on July 28, 2017, Cooper and Balch sent
an Alabama Litigation Accountability Act letter to
Newsome and Plaintiffs’ counselCharles Brooks. The
letter sets forth why there was a “lack of good ground
tosupport the claims” filed in the Third Amended
Complaint under Alabama Rule ofCivil Procedure 11(a)
and the ALAA. Cooper and Balch demanded dismissal
of Plaintiffs’ claims in the Third Amended Complaint.
Plaintiffs, however, ignoredDefendants’ demand.
Therefore, of the twelve statutory factors used to
decide if the Court should award attorneys’ fees and
costs, the four factors relatedto the plaintiff’s pre-suit
knowledge–the effort made to determine the validityof
the claim before filing suit, the availability of facts in
determining theaction’s validity, whether the action
was prosecuted in bad faith, and theeffort made before
filing to determine that the proper parties were sued–
all favor awarding fees and costs. See Ala.Code § 12-19273(1)
Here, Plaintiffs knew their claims against
Defendants lacked validity before filingsuit and were
meritless from the inception of this action. Plaintiffs
knew this because thepublicly-available court records
revealed Newsome’s underlying criminal actiondid not
terminate in his favor, a necessary prerequisite to
Plaintiffs’claims. Moreover, Plaintiffs had aspecific
opportunity to dismiss these frivolous claims when
Balch and Coopersent the ALAA letter. However, they
chose to continue pushing a baseless casein bad faith.

App. 87
The factors involving Plaintiffs’ efforts made to
investigate their claims, the availability of facts, and
proper parties, therefore, all favor awarding fees and
costs. Additionally, Plaintiffs roped Cooper and Balch
into expensive litigation with no means or intent to
substantiate his claims. These facts also prove
Newsome’s bad faith, adding yet another factor
weighing in favor of awarding attorneys’ fees and costs
to Defendants. Plaintiffs blindly disregarded evidence
that their claims were not valid that they received prior
to filing their amended Complaints, yet persisted
haphazardly anyway.
Plaintiffs’ bad faith, however, did not end with their
ignoring definitive evidence contrary to their claims.
Newsome also exhibited bad faith in attempting to
have his Shelby County arrest (the very arrest that
resulted in his mug shot being taken and began the
debacle of this lawsuit) expunged with the stated intent
of using that expungement as an offensive weapon
against Defendants in this lawsuit. The Court takes
judicial notice of Newsome’s misrepresentation to the
Circuit Court of Shelby County, whereby he claimed to
be in compliance with all terms of his deferred
prosecution agreement, including the release of all
related civil claims. The Court takes further judicial
notice ofthe Shelby County court’s finding that
Newsome made a “false representation”regarding his
claims in this lawsuit constituting “false pretenses”
under Alabama law. This finding was affirmed by the
Alabama Court of Civil Appeals, and the Alabama
Supreme Court denied Newsome’s petition for
certiorari review. Plaintiffs’ attempt to unlawfully use
Alabama’s expungement statute for the purposes of

App. 88
attacking Defendants in this lawsuit is further
evidence of Plaintiffs’ bad faith.
Further, during additional discovery after the
Plaintiffs’ amended their Complaint to add the
frivolous telephone conspiracy claims, Verizon
Wireless’s witness testified under oath that the
telephone number at issue has been its routing number
since 2007 and has not belonged to any individual
during that time. See doc. 2015 at 5. The time period in
which Plaintiffs allege that Gottier orchestrated calls
among Defendants via this number only began in 2012.
Fourth Am. Compl., at ¶ 63.1. Therefore, Plaintiffs’
allegations related to the use of this number were
completely illogical and baseless, rendering Plaintiffs’
conspiracy claims unsubstantiated.
Despite Defendants’ repeated assertions, including
sworn testimony, that they never knew each other
before the filing of this lawsuit, Plaintiffs refused to
voluntarily dismiss their conspiracy-related claims.
Further, during the course of additional discovery,
Plaintiffs produced no admissible evidence of any kind
supporting their claims that these Defendants knew
each other and conspired to commit any underlying act.
Plaintiffs could have dismissed the amended conspiracy
claims alleged against Cooper, Balch, and Gottier once
it learned from Verizon that the telephone number
that Plaintiffs thought was their lynchpin was only a
routing number. However, they did not.
The two factors related to Plaintiffs’ knowledge and
behavior during the action–the effort to reduce or
dismiss invalid claims and the effort made to reduce
the patties to the action–also favor awarding fees and

App. 89
costs. See Ala. Code.12- 19-271(2) & (11). Instead of
reducing or dismissing invalid claims and dismissing
some or all Defendants, Plaintiffs ignored contrary
evidence and made no effort at dismissal or reduction.
Rather, Plaintiffs continued to add invalid claims and
a new party, Gottier, in the face of clear evidence that
their claims were frivolous. Thus, the two factors
related to behavior during litigation weigh in favor of
awarding attorneys’ fees and costs.
Finally, the factors considering whether the facts
were ever reasonably in conflict and the availability of
the facts in determining the action’s validity also favor
an award of attorneys’ fees and costs. See Ala. Code.
12-19-271(3) and (6). In particular, Newsome knew that
he signed a deferred prosecution agreement in which
he had agreed to release “all civil and criminal claims
stemming directly or indirectly from this case ... to any
other complainants ... or persons in any way related to
this matter.” This clearly included all of the claims
related to the menacing incident, the related alleged
conspiracy, and the related forwarding of Newsome’s
mug shot to Iberia bank. Moreover, Newsome has yet
to identity any communication of any kind made by
Cooper or Balch about Newsome that was either untrue
or that amounts to intentional interference. Thus, the
factors related to reasonable conflict and availability of
the facts, also weigh in favor of Defendants’ requests
for attorneys’ fees and costs.
Significantly, Plaintiffs’ claims for intentional
interference and defamation against Cooper and Balch
were also frivolous because Cooper was a competitor for
the banks’ business, Newsome’s mug shot was a true

App. 90
fact, (as outlined in Balch and Cooper’s Motion for
Summary Judgment andthe Court’s order granting
summary judgment), and Plaintiffs could not prove
theywere damaged as a result of any action by Cooper.
In particular, Plaintiffs have not proven anyloss of
revenue or other damage from Cooper’s emails of
Newsome’s mug shot. In fact, Brian Hamilton of
Iberiabank, Cooperand Newsome’s client contact,
testified that Plaintiffs made more money inlegal fees
from the bank after the mug shot, than before. Seedoc.
2015 at 8-9.
Moreover, the Court looks to the affidavit testimony
of theexpert witnesses submitted by the Defendants in
support of the reasonableness of Defendants’ attorneys’
fees and costs based on the ALAA statutoryfactors.
After reviewing this affidavittestimony and reviewing
the history of this case, the Court finds that the
feesand costs incurred were both necessary and
reasonable. This is particularlytrue due to the
voluminous filings in this case, as well as the
subpoenas and depositionstaken in thls lengthy
litigation.
The Court, therefore, finds Plaintiffs’ claims were
withoutsubstantial justification because they were
frivolous, groundless in fact, vexatious,or were
interposed for an improper purpose of harassment,
delay, or abusingdiscovery. Specifically, pursuant to
theALAA, “in any civil action commenced or appealed
in any court of record in[Alabama], the court shall
award, as part of its judgmentand in addition to any
other costs otherwise assessed, reasonable
attorneys’fees and costs against any attorney or party,

App. 91
or both, who has brought a civilaction, or asserted a
claim therein, or interposed a defense that a
courtdetermines to be without substantial justification,
either in whole or part.” Ala. Code. § 12-19-722
(emphasis added). As a result of these factual and
legalfindings, the Court Orders as follows:
13.

Defendant John F.Bullock’s Motion
regarding the Alabama Litigation
Accountability Act isgranted. Defendant
Bullock is awarded the sum of $56,316.83 in
reasonableattorney fees and costs incurred in
his defonse of this matter.

14.

Defendant ClaiborneSeier’s Motion regarding
the Alabama Litigation Accountability Act is
granted.Defendant Seier is awarded the sum
of $75,000.00 in reasonable attorney feesand
$3,341.43 as costs incurred in his defense of
this matter.

15.

Defendant Balch &Bingham, LLP’s Motion
regarding the Alabama Litigation
Accountability Act is granted.Defendant
Balch & Bingham is awarded the sum of
$32,880.91 in reasonableattorneys’ fees
payable to Campbell Guin, plus $23,402.49 in
expenses.

16.

Defendant Don Gottier’s Motion regarding
theAlabama Litigation Accountability Act is
granted. Gottier is awarded the sum of
$1,250.00 inreasonable attorney’s fees.

App. 92
DONE this 7th day of December, 2018.
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 93

APPENDIX J
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: December 18, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER
Plaintiff’s Rule 59 Motion to Alter, Amend or Vacate
the Court’s Order of December 7, 2018, granting
Defendants’ Motions for Attorney’s Fees under the
Alabama Litigation Accountability Act is hereby
denied.

App. 94
DONE this 18th day of December, 2018.
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 95

APPENDIX K
IN THE DISTRICT COURT OF SHELBY
COUNTY, ALABAMA
Case No.: DC 2013-1434
[Filed: November 12, 2013]
[Seal]
ELECTRONICALLY FILED
11/12/2013 2:50 PM
CIRCUIT COURT OF SHELBY, ALABAMA
MARY HARRIS, CLERK
STATE OF ALABAMA V. Burton Wheeler Newsome
CASE NO. DC 2013-1434
This matter comes before the Court by the specific
AGREEMENT of the parties. The Defendant is T
present, is T represented by counsel and has not
knowingly and voluntarily waived the right to the
same. After due consideration and pursuant to said
agreement, all of the following as specifically noted
below is hereby ORDERED, ADJUDGED and
DECREED.
( )

This matter is Dismissed with _____
prejudice.

(X)

This matter is Continued until 4/01/14 9:00
then to be Dismissed with T prejudice,

App. 96
provided that the defendant have no further
incidents/arrests.
( )

This matter is placed on the Administrative
Docket until ______________, then to be
Dismissed with ____ prejudice, provided that
________________________________________.

( )

DEFENDANT MUST APPEAR IN COURT
ON THE ABOVE DATE.

(X)

COURT COSTS ARE TAXED AS FOLLOWS:
$_____ in further Recoupment to the Fair Trial
Tax Fund ___________________________
$368.00 in Court Costs including $100 Bail Bond
Fee
$20.00 as Jail Housing Costs and all Jail
Medical Expenses ____________________
$25.00 to the Crime Victims’ Compensation
Fund__________________________________
$____ to the Forensic Science Trust Fund (Act.
No. 93-733 does ___ apply)__________________
$____ in Restitution to _____________________
$____ as Worthless Check Cost (TWC #____)
____________________________
X $413.00 TOTAL to be deducted from Cash Bond

PAYMENT MAY BE MADE BY CERTIFIED CHECK,
MONEY ORDER, OR IF IN PERSON BY CASH TO
COURT CLERK, P.O. BOX 1810, COLUMBIANA, AL

App. 97
35051. THE ABOVE CASE NUMBER SHOULD
APPEAR ON ALL PAYMENTS NOTE: IF THE
DEFENDANT FAILS TO MAKE SUCH PAYMENTS
AND FAILS TO APPEAR IN COURT ON THE ABOVE
DATES SHOWN, THIS MATTER WILL NOT BE
DISMISSED AND AN ARREST WARRANT AND
BOND FORFEITURE CAN BE ISSUED FOR THE
DEFENDANT.
The Defendant does hereby grant a full, complete and
absolute Release of all civil and criminal claims
stemming directly or indirectly from this case to the
State of Alabama, its agents and employees, including,
but not limited to the District Attorney for Shelby
County, Alabama, his agents and employees; to Shelby
County, Alabama, its agents and employees, including,
but not limited to the Sheriff of said County, his agents
and employees, to any other law enforcement or
investigative agencies, public or private, their agents
and employees; to any other complainants, witnesses,
associations, corporations, groups, organizations or
persons in any way related to this matter, to also
include the Office of the Public Defender of Shelby
County, Alabama, its agents and employees, from any
and all actions arising from the instigation,
investigation, prosecution, defense, or any other aspect
of this matter. The Defendant freely makes this
release knowingly and voluntarily. In exchange for
this release, this case will be either dismissed
immediately or pursuant to conditions noted above.
ANY FEES OR COSTS NOT SPECIFICALLY TAXED
ABOVE ARE HEREBY REMITTED.

App. 98
The foregoing duly reflects the Agreement of the
parties as entered above and attested by the signatures
below
/s/
Complaining Witness

/s/
District Attorney

/s/
Defendant

/s/
Defendant’s Attorney

Done and ordered: 11-12-13
/s/
____________
DISTRICT JUDGE (SHELBY COUNTY)

App. 99

APPENDIX L
THE CIRCUIT COURT FOR THE
EIGHTEENTH JUDICIAL CIRCUIT
SHELBY COUNTY, ALABAMA
Case No. CC-15-121
____________________________________
STATE OF ALABAMA,
)
)
Plaintiff
)
)
V
)
)
BURTON WHEELER NEWSOME,
)
)
Defendant.
)
____________________________________)
TRANSCRIPT OF PROCEEDINGS
BEFORE:

HONORABLE H. L. CONWILL
Shelby County Courthouse
Columbiana, Alabama
June 3, 2016

Jill B. Sanders, CSR, RPR
Official Court Reporter

App. 100
FOR THE STATE OF ALABAMA:
Roger Hepburn
SHELBY COUNTY DISTRICT ATTORNEY'S
OFFICE
112 North Main Street
Columbiana, Alabama 35051
FOB BURTON WHEELER NEWSOME:
William R. Justice
ELLIS, HEAD, OWENS & JUSTICE
P.O. Box 587
Columbiana, Alabama 35051
FOR JOHN BULLOCK:
James E. Hill
HILL, WEISSKOPF & HILL
2603 Moody Parkway, Suite 200
Moody, Alabarna 35004
FOR CLAIBORNE PORTER SEIER, ESQ.:
Robert Ronnlund
SCOTT, SULLIVAN, STREETMAN & FOX
2450 Valleydale Road
Birmingham, Alabama 35244

App. 101
PROCEEDINGS
MR. RONNLUND: Robert Ronnlund, Scott Sullivan,
here for Claiborne Seier.
MR. HILL: Jim Hill for John Bullock.
MR. JUSTICE: William Justice. I represent Burt
Newsome.
MR. HEPBURN: Roger Hepburn representing the
State of Alabama, if we are a party to this at all.
THE COURT: Does anybody disagree that all that
has been filed is under CC-2015-121?
MR. JUSTICE: Well, when we attempted to file in
the clerk’s office under that case, number, they
wouldn’t let us.
THE COURT: Well, they don't because it has been
expunged.
MR. JUSTICE: Correct. That was the case number
of the expunged case, so I assume that would be the
right number.
THE COURT: Well, what I’m asking, is there
another case number that any of this has been filed?
MR. JUSTICE: Not that I know.
THE COURT: A lot of ·it hasn't been filed, it’s been
handed to me.
MR. JUSTICE: Correct, because it couldn’t be filed
in the clerk’s office.

App. 102
How did you manage to get yours filed and they
wouldn’t let us file?
MR. RONNLUND: I sent someone who is very
persuasive.
THE COURT: Okay. The first thing, what all do we
have here motion wise?
MR. HILL: I think mine is the first motion. Mine is
the first motion.
THE COURT: Okay. Well, some of them is entitled
different things. You actually filed requesting the use
of the contents of the expunged file, correct?
MR. HILL: Yes, sir.
MR. RONNLUND: Judge, I filed the second motion
joining in with Judge Hill’s motion, and beyond that I
said that the expungement should be set aside under
the statutory provision that this court has the
jurisdiction to do so under the false pretense exception
to the expungement statute.
THE COURT: Anything else? I know there is a
response.
MR. JUSTICE: I filed a response to each one and
then we filed a further motion to make sure that,
depending on how things end up here, if the
expungement stays in effect all of these subsequent
things are also -- would also fall under an expungement
order.
THE COURT: From what I read --

App. 103
MR. RONNLUND: Is this what you are talking
about (indicating)? I had two things hand delivered to
my office and this was one.
MR. HILL: Okay, Judge. Here is the deal or here is
my theory on this. I’ll just give you a brief history.
THE COURT: I know the history, but you give it to
me also just for the record.
MR. HILL: Very briefly. I think in October or
November of 2012 -MR. BULLOCK: 2012.
MR. HILL: He was going to -- Mr. Bullock was going
to the dentist. It was about 8:00 o’clock in the morning.
He gets out of his automobile, and Mr. Newsome pulls
a gun on him.
Mr. Bullock gets a warrant for Mr. Newsome. They
come down here via the district attorney’s office and
Mr. Bullock. A deferred prosecution is entered into, a
release is signed that releases Bullock, the DA' s office,
the Shelby County sheriff’s office, and everybody else in
the whole wide world from civil liability.
Two years later -- I think it’s January of 2014 -- Mr.
Newsome files a lawsuit. His lawsuit sounds in
conspiracy, fraud. Basically what happened, Judge, I
think is that after Mr. Newsome gets arrested and his
mug shot gets up and all this kind of stuff happens -- it
always happens when someone gets arrested
apparently someone from Balch Bingham got ahold of
that and serit it out to some people. Mr. Newsome files

App. 104
a lawsuit not only against Balch Bingham, but he files
a lawsuit against John Bullock and Claiborne Seier.
Claiborne Seier is in this because apparently some
time in the past his brother, Albert, pulled a gun on
Mr. Newsome. Apparently the whole theory of their
lawsuit is there is a conspiracy between John Bullock,
Claiborne Seier, and Balch Bingham, t o interfere with
Burt Newsome’s business relationships.
So, that’s fine. He files a lawsuit. We file a motion
to dismiss in front of Judge Smitherman who has this
case.
In a nutshell, here is what we say: Here is a release.
It’s plain on its face. It releases Mr. Bullock. It released
us from this lawsuit.
He then -- after all -- by the way, Judge, at the time
we did that, we filed the release, we filed the warrant,
we fil ed the documents that we obtained from the
District Court of this county, the clerk’s office of this
county, prior to any expungement. We obtained those
records, we filed them in the Circuit Court of Jefferson
County. We ask that this case be dismissed based on
really based on the release. A month or two after that,
Mr . Bullock files an amendment -THE COURT: Mr. Bullock?
MR. HILL: I’m sorry, Newsome -- files an
amendment. His amendment now drags in something
called -- he now drags in fraud. It’s the same allegation,
he just makes another count of fraud. Judge
Smitherman dismisses us. Sometime later Judge
Smitherman reinstates all of this.

App. 105
In about August of 2015, Mr. Newsome files a .
motion to expunge. There’s a hearing before Judge
Reeves. The district attorney’s office objected to the
expungement. The district attorney office filed a
written objection to the expungement -THE COURT: Which was late?
MR . HILL: It was . We filed one, too, Judge, but
nobody sent us anything until the DA sent us a notice
to appear. So we filed a motion to object to the
expungement.
We appeared. ·The expungement record doesn’t say
you have to file -- it says -- what the statute says is that
a judge, if nothing is done, can expunge those records
just based on the pleadings .
We stand in front of Judge Reeves. ,Mr. Bullock
asked him not to expunge these records. Originally he
does not, and then he comes back later and does. I can’t
tell you why. We didn’t have a second hearing, I can
tell you that.
The first hearing when we all stood before Judge
Reeves and said don’t expunge these records, the victim
was standing in front of him and he denied the
expungement. And then, for some reason, he comes
back later and grants the expungement. I can’t answer
why. Like I said, we didn’t have a second hearing,
didn’t have a second opportunity to be heard in that
case.
Mr. Newsome then files motions in the court saying
you can’t use the release, you can’t use any of this
because it’s expunged. In the civil case, the very basis

App. 106
of which is the actions that he took pulling a gun on
somebody that he doesn’t even know, alleging a
conspiracy between two men -- by the way, Judge, who
met this morning for the first time in their lives -- and
now he says you can’t use those expunged records.
Well, those expunged records, Judge, say -- the
statute that deals with this, which is, 15-27-16, says
you can’t use them absent a court order. That’s in 15-27
-16(a), absent a court order -- expunged without a court
order.
So, Judge, we want a court order from the Circuit
Court that granted the expungement that we can use
the records in a defensive posture against the civil
lawsuit brought against Mr. Bullock by the person who
pulled a gun on him and entered into a deferred
prosecution with the district attorney’s office of this
county and signed a civil release, and now he says we
cannot use the release, we cannot do any of this, all of
that’s expunged, all of it’s gone it is held for naught.
You know, if he wants to talk about fraud on the
court, there is a fraud on the court. There is a fraud on
the court.
I’m not going to argue Mr. Ronnlund’s theory
because he will do a much better job than I will, but I
join in his request that you just set the expungement
aside. That’s the fraud that’s been perpetrated, Judge.
And there are a plethora of cases -- not from this
state, but from other states, again, that Robby has
cited to you, that talk about using expungement in a
defensive position and they have always been upheld in
every other state. We ought to be able to use it.

App. 107
That will work for right now, Judge, that sums up
my thoughts.
THE COURT: Go ahead.
MR. RONNLUND: I just think that the
expungement in this case can be set aside. There’s a
provision in the statute 15-27-17 that says that the
court may set aside an expungement at any time if it
were granted under false pretenses.
One of the foundational prerequisites of any court in
the State of Alabama granting an expungement is that
the terms and conditions of the underlying agreement,
sentence, whatever it may be, must be fulfilled and
completed. There must be a representation under oath
by the petitioner that all underlying requirements of
the underlying case be fulfilled.
One of those in this case particularly with respect to
Mr. Newsome was that he released all civil and
criminal liability related to that underlying offense
where he pulled a gun, and it’s over with. The whole
point of that was to bring finality to this incident.
He made that representation which was -- to Judge
Reeves, which was blatantly false. There was a pending
case. The terms of the deferred prosecution agreement
-- which, by the way, I think in Shelby County it’s titled
deferred prosecution and release agreement -- had not
been fulfilled. There was a pending civil lawsuit in
violation of the agreement pending in the Circuit Court
of Jefferson County. It’s still pending to this day. If he
wants to dismiss it with prejudice here or sign
something, maybe there’s an argument it shouldn’t be
set aside. But the bottom line is that the foundational

App. 108
prerequisite to an expungement was not met and it’s
still not met today.
So we can argue about using the records and how
they should be used and anything else, but I don't
think there should have even been an expungement in
the first place. In fact, now in the pleadings that have
been filed that I got a copy of yesterday, there is
something about that the deferred prosecution and
release agreement is void. Well, if it’s void, then we
need to put this case back on the active docket of the
District Criminal Court of Shelby County and go have
a trial.
MR . HILL: Your Honor, we will go along with that.
If you want to set the whole thing aside, let’s have a
menacing trial and let’s see -- let’s have a trial. Let’s let
the DA prosecute.
THE COURT: What about the argument that the
court lost jurisdiction after thirty days?
MR. RONNLUND: The statute is absolutely clear
that the court may do it at any time. 15--27-17 does not
say the Court may do it within thirty days, the Court
may do it within forty-two days, the Court may do it
within ninety days. There is no time period.
And the point and reason to that is clear, because
false pretenses don’t always show up overnight. We
said from the beginning that we never got a notice from
the district attorney or Mr. Newsome or the Circuit
Court of Shelby County or anybody else there was
going to be a hearing that we needed to come down
here and appear on. Thankfully Judge Hill did and
showed up and vicariously represented our interest.

App. 109
MR . HILL: May I throw in one more thing about
the thirty days if you don’t mind?
THE COURT : Sure.
MR. HILL: Let’s assume for a moment that Mr.
Newsome had filed his motion to expunge prior to the
time that he filed his lawsuit and it was granted. The
truth is, Mr. Bullock wouldn’t have come down and
cared if he hadn’t filed a lawsuit. You know, if he had
cared, he would have insisted that it go to trial then.
He didn’t.
I think the statute says that the reason that a court
order can be granted to allow those is just this kind of
a situation, because he wants to use it offensively. We
just say, hey, he brought a lawsuit against us based on
the facts that occurred when he pulled the gun, we
ought to be able to use the facts when he pulled the
gun.
THE COURT: Okay .
MR. JUSTICE: First of all to address Mr. Bullock’s
motion. That is filed too late, past the thirty days.
What that is is wanting a second bite at the apple. If
there was a dissatisfaction with the expungement
order, the statute provides a review by certiori. Mr.
Bullock participated in the expungement proceedings.
The reason Judge Reeves withdrew the first order
denying the expungement was in response to a motion
on Mr. Newsome’s behalf that the grounds for that
denial was incorrect under the law. The judge said,
hey, this isn’t the kind of charge t hat can be expunged.
Well, that was shown not to be so.

App. 110
As far as filing Mr. Bullock’s motion, if there was a
disagreement or a dissatisfaction with not being able to
use these documents in the civil case, then there should
have been some action taken within thirty days of that
second order granting the expungement.
The court order that’s being referred to in section
15-27-16 refers to criminal liability under a Class B
misdemeanor. Anybody that uses these expunged
orders without a court order is guilty of a Class B
misdemeanor. It doesn’t create -- that statute doesn’t
create any rights to this kind of relief that’s being
asked. It’s only limited to that situation of avoiding a
criminal liability. Any of these claims by Mr. Bullock
should have been raised at -- in front of Judge Reeves
at the time of the proceeding that resulted in the
expungement order.
As far as Mr. Seier’s motion. First of all, Mr. Seier
is not a party to the expungement proceeding. He has
complained that he didn’t get notice, but the statute
doesn’t provide for him to have any notice of it. In fact,
if you read the statute closely, the statute does not
require -- didn’t even require notice Mr. Newsome to
Mr. Bullock, the victim. The DA is the one that is
supposed t o contact the victim. Under the statute, it’s
only under a limited situation that the DA -- it says
“may contact the victim.” So that notice argument is
really a red herring in this case.
The thrust of Mr. Seier’s petition or motion is that
Mr. Newsome’s original petition for expungement was
made under false pretenses because there was a
release in the dismissal and·release order. It’s not a
deferred prosecution, it’s a dismissal and release order,

App. 111
and that release has been violated by him filing suit.
Therefore, when he filed his expungement petition, he
was in violation of the conditions of his criminal
dismissal.
First of all, the order of dismissal itself does not
have any conditions to it, but the relief -- filing a suit is
not a violation of the release. It’s not -- there wasn’t a
covenant not to sue in the release. It was -- you can see
for yourself the wording. The release is attached as an
exhibit to many of the things.
Of course, we would contend that the release -- in
attempting also to release criminal liability is void as
a matter of law. It’s not enforceable.
The civil suit, the amended -- and I’m not a part of
that civil suit, it's just what I have read. There was an
amendment alleging that this release was obtained
through fraudulent representations and a conspiracy.
Mr. Newsome is entitled to pursue that in his civil
case, but really it does not -- it doesn’t affect what you
can and cannot do here with this expungement.
Judge Reeves knew of the civil case at the time of
the expungement proceeding because Mr. Bullock had
filed his own objection, however late, raising this civil
action that was in Jefferson County, and Judge Reeves
was fully aware of it.
Basically our argument is you don’t have
jurisdiction over either one of these to grant them. It’s
too late for Mr. Bullock’s. He should have sought
review under certiori. Mr. Seier doesn’t have any
standing or ability or rights under the statute to bring
this up.

App. 112
MR. HILL: Interestingly it was after the
expungement that he raised we couldn’t use the
release. You know, Judge, he wants it both ways.
Whether it’s expunged or not, I don’t really care, not
that bad . I want to be able to use evidence in a civil
trial of what has gone on in the totality of the
circumstances of this case. To keep it out through some
kind of expungement-type order when that is not
allowed in any other state that we have been able to
find cases to, is just simply -- it’s just simply wrong.
MR. RONNLUND: And briefly addressing this
timeliness and jurisdictional issue. I would like to see
a citation to any statute, any case, any rule, anything
at all, a newspaper article would be fine, that says that
this motion to use the records can’t be filed within -- it
has to be filed wi thin thirty days, that it can’t be filed
outside of thirty days.
The statute doesn’t say that. The plain language of
the statute says that the court can enter an order. It
doesn’t say the court can enter an order in thirty days
or forty-two days or any period of time, it says this
court can enter an order -- it says any court can enter
an order. Mr. Bullock, and now my client Mr. Seier, are
asking this court for an order.
Additionally, with respect to setting it aside under
false pretenses, it’s the same thing. There’s no time
limit. There’s no thirty days. We keep hearing thirty
days, thirty days, thirty days. It’s say it aloud five
times and hope it becomes the truth.
It can be aside at any time by this court for false
pretenses. The fact of the matter is that there was a

App. 113
specific representation sworn under oath that the
conditions of the prosecution agreement were fulfilled,
and they were not. We shouldn’t give anybody the
benefit of the doubt for -- I mean, this is to give
somebody a fresh start, to let bygones be bygones.
That is the whole purpose of the expungement
statute. They bought up the legislative history of it.
There is a lot of statements to that effect. And if we are
going to keep dragging this stuff into court, let’s let it
all be public. Let’s let it all be out there. There
shouldn’t be some freebie given just because somebody
is a. local lawyer here in Shelby County to just get
away with it, basically. There should be some
accountability.
MR. HILL: Can I read the release just one second?
THE COURT: I have it right here. I’ve read it.
MR. HILL: “Full, complete and absolute release of
all civil and criminal claims.”
THE COURT: No, believe me, I’ve read it, but I’ve
read it many, many times in the past.
So, it’s Burt’s position that this release is in effect,
as far as a criminal case, means nothing because it is
illegal?
MR. JUSTICE: Yes, sir, among other things.
MR. HILL: Set aside his plea. Let’s have a trial.
THE COURT: I mean, I read what was filed
regarding that. Now on the -- under 15-27-17, okay, it
says: “Upon determination by the court that a petition

App. 114
for expungement was filed under false pretenses and
was granted.” In other words, the petition had been
granted, obviously, for expungement.
MR. JUSTICE: Yes.
THE COURT: The order -- and we have that. “The
order of expungement shall be reversed and the
criminal history record shall be restored to reflect the
original charges.”
Now, normally you are not going to find that out in
thirty days necessarily.
MR. JUSTICE: Right. I didn’t make the thirty-day
argument, as far as under that section. I attacked the
false pretenses basis for that argument.
THE COURT: Now, I do agree that Seier, I don’t
believe, has standing in this case, because he wasn’t in
it.
MR. RONNLUND: As an officer of the court, we
have now brought it to the court’s attention. I would
say that, if nothing else.
THE COURT: I understand what you’re pleading
and everything.
MR. HILL: Judge, then Bullock has standing. He is
the victim.
THE COURT: He don’t have to be. No, I will tell
you, I almost look upon this as a joke frankly, just to
be --

App. 115
MR. RONNLUND: It would be a joke if my client
didn’t have forty or fifty thousand dollars worth of legal
fees.
THE COURT: The idea that you signed this release
and then totally disregard, you know, what you have
signed. And then -- well, I don’t know exactly how my
order will read, but it’s going to read some way or
another to where -- I guess I could reinstate the
criminal charge.
MR. HILL: That suits us.
THE COURT: But I think just fair play in the sense
of what’s right and wrong -- you know, this would seem
like something that, you know, somebody would show
on TV and people would, you know curl their head up
or something and say, well, you know, that can’t be.
Well, I don’t think it can be.
MR. JUSTICE: Judge, a procedural matter, because
of the weird posture of this case with it being expunged
and having to file with you -THE COURT: I understand.
MR. JUSTICE: If you can note in handwriting or
something on all of the filing, you know, filed with the
court or filed with the judge, or some notation other
than these things just floating out there.
THE COURT: I’ll do that. I understand your
argument which is a great argument. But, again, as far
as just what is right or wrong -- and, you know it may
be reversed. I’ve sent a couple down there -- and you
are the one that reversed me. I knew they were going

App. 116
to be reversed when I sent them down there, too, but I
still thought it was the right thing to do .
MR . JUSTICE: At least you didn’t put in your order
like -THE COURT: No, but I mean -- you know, this
thing about filing tax -- where you’ve got to make sure
you actually hand it to the people over there. You can
file it in court, but still -- you know, they said, no, you
don’t have jurisdiction. You didn’t send it to them, even
though it was filed in court five days before.
It’s just my sense of what’s right and wrong. Like I
say, I think under 15-27-17, just the way that reads, I
would think there is not a limitation . I think when the
court has determined it was filed under false pretenses
-- and from the pleadings it was filed under false
pretenses because apparently if you signed this release
and dismissal and then you’re planning on disregarding
it or already has, I think that’s false pretenses. Okay.
MR. HILL Yes, sir
THE COURT: Thank you.
MR. HILL: Good to see you.
THE COURT: Put your heads together and send me
some type of order that I might change.
(End of Proceedings.)

App. 117

APPENDIX M
IN THE CIRCUIT COURT OF SHELBY
COUNTY, ALABAMA
CASE NO. CC 2015-000121
[June 8, 2016]
_________________________________
STATE OF ALABAMA
)
)
Plaintiff
)
)
v.
)
)
BURTON WHEELER NEWSOME )
)
Defendant.
)
_________________________________)
ORDER

This matter came before the Court on various
Motions filed by the victim, John Bullock, and
Claiborne Porter Seier Esq. – a non-party named as a
defendant in civil litigation filed by Defendant
Newsome arising out of the same operative facts as the
instant criminal matter. Mr. Bullock has filed a
Motion to Use Contents of Expunged File, while
Attorney Seier has filed a Petition to Set Aside as

App. 118
expungement previously granted by this Court
(through another, now-retired judge) pursuant to Ala.
Code § 15-27-15. Both movants have joined (orally, in
writing, or both) in the others’ respective motions.
Having received written briefs and oral argument from
the various parties and considered same, the Court
hereby sets aside the expungement pursuant to Ala.
Code 1975 § 15-27-15, and further gives the movants
leave to use the contents of Defendant Newsome’s
charge, plea and disposition as they may deem
necessary and appropriate.
RELEVANT BACKGROUND AND FACTS
1. On or about December 19, 2012, Defendant
Newsome alleges that he was scheduled to appear in
court in Pell City, Alabama.
2. On the same date, Victim John Bullock had a
scheduled appointment with a dentist whose office is
next door to Newsome’s law practice. Bullock
apparently parked next to Newsome’s vehicle in the
parking lot shared by and between the two businesses.
3. As Newsome exited his office heading towards
his vehicle, Bullock exited his vehicle and began
walking towards dentist’s office. Newsome, who alleged
that he felt threatened by Bullock, produced and
brandished a pistol. Newsome then entered his car and
left for Pell City.
4. Bullock subsequently filed a criminal complaint
against Newsome for the crime of menacing.
5. On May 2, 2013, Newsome was stopped for
speeding and arrested on the menacing warrant.

App. 119
6. On November 12, 2013, the District Court of
Shelby County accepted a deferred prosecution
agreement reached between the State and Defendant
Newsome and entered a “Dismissal & Release Order.”
Defendant Newsome and Victim Bullock both signed
the order. The order continued the case until April 1,
2014, and provided that the case would be dismissed
with prejudice at that time “if the defendant had no
further incidents/arrests.” The order also contained a
general release of all civil claims of any nature related
to the underlying incident and all parties related
thereto.
7. On April 4, 2014, the criminal prosecution
against Newsome was dismissed with prejudice
pursuant the deferred prosecution and the terms of the
Dismissal & Release Order.
8. On January 14, 2015, Newsome filed a civil suit
in the Circuit Court of Jefferson County against John
Bullock, Claiborne Seier, Clark Cooper and the law
firm of Balch and Bingham, LLP. Newsome alleged
that Seier and Bullock had staged the event that led to
his arrest for the purpose of fabricating a false charge
of menacing. He asserted claims against them for
malicious prosecution, abuse of protection, false arrest,
and outrage. He additionally asserted claims against
Cooper and Balch & Bingham related to Cooper’s
sending an email containing Newsome’s mugshot and
other information related to the criminal case to a
mutual banking client or clients.
9. On February 13, 2015, Seier filed a motion to
dismiss the civil suit based on the dismissal-release
order.

App. 120
10.
On February 24, 2015, Bullock filed a motion
to dismiss the civil suit based on the dismissal-release
order.
11.
On February 19, 2015, Newsome filed the
instant action to expunge the records of his prosecution
for menacing.
12.
On July 10, 2015, the state filed an objection
to Newsome’s Petition for Expungement pursuant to
Ala. Code 1975 § 15-27-5.
13.
On August 24, 2015, Bullock filed a separate
objection to the expungement petition through his
attorney, James E. Hill, Jr.
14.
Newsome’s Petition for Expungement was set
for hearing on August 31, 2015.
15.
The State filed a second objection to the
petition on the date of the hearing. In this second
objection, the State argued that menacing was a
“violent crime” and that a charge of menacing was not
subject to expungement.
16.
Following the August 31, 2015 hearing, this
Court entered an order denying Newsome’s petition.
17.
On September 2, 2015, Newsome filed a posttrial motion in this Court related to the denial of his
expungement petition. He argued that (a) the
misdemeanor of menacing is not excluded by the
expungement statute, (b) that neither the State nor the
victim had filed a timely objection to the petition for
expungement.

App. 121
18.
On September 10, 2015, a now-retired judge
of this Court granted Newsome’s post-trial motion and
entered an order of expungement.
19.
On September 28, 2015, Newsome filed a
post-trial motion in his civil case, and he attached a
copy of the expungement order to the motion. He
argued that the expunged release was “not a lawful
basis” for dismissing his civil action. He also argued
that any defensive use of the expunged release or other
documents from the criminal court file by the
Victim/Civil Defendant or any other party to that
action was “now a criminal offense.”
20.
The civil case remains pending against both
Bullock and Seier at this time.
21.
Alabama’s expungement statute state in
relevant part:
Section 15-27-3 (Submission of sworn statement
and records; service).
(A) A petition filed under this chapter shall
include a sworn statement made by the person
seeking expungement under the penalty of
perjury stating that the person has satisfied the
requirements set out in this chapter and
whether he or she has previously applied for an
expungement in any jurisdiction and whether an
expungement has been previously granted.
Section
15-27-12
expungement).

(Prerequisites

to

App. 122
No order of expungement shall be granted
unless all terms and conditions, including court
ordered restitution, are satisfied and paid in full,
including interest, to any victim, or the Alabama
Crime Victim’s Compensation Commission, as
well as court costs, fines, or statutory fees
ordered by the sentencing court to have been
paid, absent a finding of indigency by the court.
Section 15-27-17 (Filing under false pretenses).
Upon determination by the court that a petition
for expungement shall be reversed and the
criminal history record shall be restored to
reflect the original charges.
22.
On the facts before the Court, it is clear that
Defendant Newsome did not satisfy Section 15-27-12
(Prerequisites to expungement) as all terms and
conditions of the underlying deferred prosecution
agreement were not satisfied in full at the time that
the Petition for Expungement was filed. To the extent
that the Defendant represented otherwise to this
Court, said representations were necessarily false by
virtue of his pending civil action against, among other
persons, the Victim of the underlying offense.
23.
The Court hereby determines that the
Defendant’s false representation that he had fulfilled
all terms and conditions of the underlying deferred
prosecution agreement when he was concurrently
prosecuting a civil action against the victim in violation
of the Release and Dismissal Order of the District
Court of Shelby County constitutes “false pretenses”
within the meaning of Ala. Code 1975 § 15-27-17. This

App. 123
conclusion is further supported and confirmed in the
Court’s mind by the subsequent motions filed by the
Defendant alleging that the Victim’s defensive use of
the deferred prosecution agreement in the civil action
filed against him by the Defendant as supposedly
criminal.
24.
Addressing the arguments of Defendant
Newsome in opposition to the Petition to Set Aside the
Expungement, the Court agrees with the Defendant
that Attorney Seier has questionable standing to bring
such a Petition in this Court. However, Attorney Seier’s
Petition has been joined by the Victim. Further, the
matter having been brought to the Court’s attention by
an officer of the Court, the Court is obligated to
investigate and act as may be necessary and
appropriate. This is particularly true given that the
Defendant is himself a member of the local Bar.
25.
Defendant Newsome additionally alleges that
the Release and Dismissal Agreement itself should be
declared void. In making this assertion, however,
Defendant Newsome does not volunteer to have this
case placed back on the active criminal docket.
Furthermore, even assuming the validity of Defendant
Newsome’s argument that one clause of the Agreement
(which purports to contain a release of criminal claims)
is unenforceable, that clause is not at issue here. The
Court finds that the general civil release of claims
contained in the Agreement is valid under Alabama
law.
26.
Defendant Newsome also alleges that the
various motions filed in this case are untimely, or are
barred by the doctrine of res judicata and/or collateral

App. 124
estoppel. Ala. Code 1975 § 15-27-17, upon which the
Court bases its ruling herein, does not contain any
specific time period during which the Court must act,
and there has been no authority presented that this
Court’s jurisdiction to act pursuant to Ala. Code 1975§
15-27-17 is limited to a proscribed time period. Likwise,
Defendant Newsome has presented no evidence or
authority that the Court must enter an order allowing
for a party to use previously-expunged records within
some definite time period under Ala. Code 1975 § 1527-16. In fact, such an argument flies in the face of
common sense, which dictates that such requests for
orders to use expunged records would often necessarily
be filed well after an order of expungement was
entered. Regardless, due to the lack of any supporting
legal authority, the Court finds that any such
timeliness or waiver argument has been waived.
27.
Finally, Defendant Newsome alleges that his
Petition for Expungement was not filed under false
pretenses because the existence of a pending civil
action was raised by the victim in prior proceedings.
The undersigned was not present for any of the prior
proceedings in this matter and has not been provided
with a transcript of those proceedings to study.
Regardless, it is abundantly clear that the statutory
prerequisites for expungement were not met in this
case. A valid expungement required an affimance
under oath by the Petitioner that all requirements of
the underlying sentence have been met. The
prosecution of a civil lawsuit against a victim who was
released from liability in conjunction the Defendant’s
execution of a deferred prosecution agreement or
Dismissal and Release Order clearly indicates to the

App. 125
Court that the terms of that agreement and Order have
not been followed and fulfilled. Further, the
Defendant’s continued prosecution of the civil action
against the Victim (and thus, by extension, his
continuing violation of the Dismissal and Release
Order) shows that the Defendant is still not in
compliance with terms of the agreement and Order.
28.
As such, the Court finds that the requirement
of Ala. Code 1975 §15-27-17 have been shown, and that
the Defendant’s expungement was filed and obtained
upon false pretenses. The Clerk of Court is accordingly
ordered to vacate the previously entered order
expunging this file, and take all other necessary steps
to restore the Court record related to the subject
charge.
29.
The movants are futher free to utilize all
records related to the Defendant’s prosecution, plea
and the case’s disposition as they may find appropriate
and necessary. The expungement statute was enacted
to provide a “shield” to first time and non-violent
offenders. It was not intended to be a “sword” for those
engaged in civil litigation over the same transaction
made the basis of their criminal offense, and the Court
will not construe the statute as such.
DONE AND ORDERED this the 8th day of June,
2016.
/s/
CIRCUIT COURT JUDGE

App. 126

APPENDIX N
IN THE SUPREME COURT OF ALABAMA
[seal]
No. 116155
[Filed: April 27, 2018]
Ex parte Burton Wheeler Newsome. PETITION FOR
WRIT OF MANDAMUS: CRIMINAL (In re: State of
Alabama v. Burton Wheeler Newsome) (Shelby Circuit
Court: CC-15-121; Criminal Appeals:CR-15-1223).
ORDER
The “Petition of Burton Wheeler Newsome for the
Writ of Certiorari, or in the Alternative, for the Writ of
Mandamus” filed by Burton Wheeler Newsome on
September 29, 2017, directed to the Honorable Hewitt
Lawrence Conwill, Judge of the Circuit Court of Shelby
County, having been submitted to the Court,
IT IS ORDERED that the Circuit Court of Shelby
County shall, pursuant to Rule 58(c), Ala. R. Civ. P.,
enter into the State Judicial Information System (SJIS)
its June 8, 2016, order in which it vacated the
previously-entered order expunging records relating to
the district court criminal charge against Burton
Wheeler Newsome.
IT IS ORDERED that otherwise the Petition for
Writ of Mandamus is DENIED.

App. 127
Witness my hand this 27th day of April, 2018.
/s/ Julia Jordan Weller
Clerk, Supreme Court of Alabama
FILED
April 27, 2018
8:29 am
Clerk
Supreme Court of Alabama

App. 128
[seal] IN THE SUPREME COURT OF ALABAMA
April 27, 2018
cc:
D. Scott Mitchell
Hewitt Lawrence Conwill
Shelby County Circuit Clerk’s Office
James E. Hill, Jr.
Robert M. Ronnlund
Nathan P Wilson
G. Houston Howard II
Steven Marshall
Ferris Stephens
Jill Hall Lee
A. Gregg Lowrey

App. 129
SHAW, Justice (concurring in part and dissenting
in part).
I agree that this petition for the writ of mandamus
is due to be denied. As to that portion of this Court’s
order instructing the trial court to enter its June 8,
2016, order in accordance with Rule 58(c), Ala. R. Civ.
P., I respectfully dissent.

App. 130
BRYAN, Justice (concurring in part and dissenting
in part).
I concur in the Court’s order to the extent it
dismisses Burton Wheeler Newsome’s petition for a
writ of mandamus. However, I cannot concur in the
Court's order to the extent it directs the Shelby Circuit
Court (“the trial court”) to enter its June 8, 2016, order
into the State Judicial Information System (“the
SJIS”).
Until the trial court decides to instruct the clerk of
the trial court to enter its June 8, 2016, order into the
SJIS, that order “‘remains within the control of the
signer and that signer, the judge, is free to alter it,
postpone its entry, or decide not to cause it to be
entered at all.’” Jakeman v. Lawrence Grp. Mgmt. Co.,
82 So. 3d 655, 658 (Ala. 2011) (quoting Rollins v.
Rollins, 903 So. 2d 828, 833 (Ala. Civ. App. 2004)).
Thus, by instructing the trial court to enter its June 8,
2016, order into the SJIS, this Court invades the
province of the trial court to determine whether -- and,
if so, when -- that order should be made effective.
Further demonstrating the impropriety of the Court’s
instruction is the fact that the Court has not been
asked to direct the trial court to enter its June 8, 2016,
order into the SJIS. Because it is the trial court, not
this Court, that should determine when, and if, that
order is to be made effective, i.e., entered into the SJIS,
I respectfully dissent from the Court’s order insofar as
it directs the trial court to enter the June 8, 2016, order
into the SJIS.

App. 131

APPENDIX O

IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: June 15, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER ON JUDICIAL RECUSAL
Before the Court is Plaintiffs Motion for Judicial
Recusal of the undersigned under Alabama Judicial
Cannons of Ethics 3(b)(1), 3(c)(1), and 5(c)(4). Having
reviewed the pleadings, law and presentations of all
counsel, the Court finds said Motion is due to be and is
hereby denied.

App. 132
The Court finds itself to be equitable, unbiased,
impartial and fair to all parties, witnesses, entities and
individuals involved in this litigation.
DONE this 15th day of June, 2018
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

App. 133

APPENDIX P
IN THE CIRCUIT COURT OF JEFFERSON
COUNTY, ALABAMA
BIRMINGHAM DIVISION
Case No.: CV-2015-900190.00
[Filed: June 15, 2018]
_______________________________________
NEWSOME BURT W,
)
NEWSOME LAW LLC,
)
Plaintiffs,
)
)
V.
)
)
COOPER CLARK ANDREW,
)
BALCH & BINGHAM LLP,
)
SEIER CLAIBORNE P,
)
BULLOCK JOHN FRANKLIN JR.
)
ET AL,
)
Defendants.
)
_______________________________________)
ORDER
Balch and Cooper filed an Objection and Motion to
Strike the Affidavits of Robert Serrett and John
Manning. Based on the briefs submitted and the oral
arguments heard, the Court hereby grants the Motion
to Strike, and striked the affidavits of Robert Serrett
and John Manning because they wree submitted after
the deadline for discovery set forth in the Court’s

App. 134
Scheduling Order and under Alabama Rules of Civil
Procedure 26(d) for supplementation of discovery
responses, and the evidence shows that Serrett is not
competent to testify to the current status of the 205410-1494 phone number which is undisputedly owned
by Verizon Wireless.
DONE this 15th day of June, 2018
/s/ CAROLE C. SMITHERMAN
CIRCUIT JUDGE

